<html>
<title> - CRIMINAL JUSTICE RESPONSES TO OFFENDERS WITH MENTAL ILLNESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      CRIMINAL JUSTICE RESPONSES TO OFFENDERS WITH MENTAL ILLNESS 
=======================================================================
                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2007

                               __________

                           Serial No. 110-32

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-359 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama
[Vacant]

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel



















                            C O N T E N T S

                              ----------                              

                             MARCH 27, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

                               WITNESSES

The Honorable Steven Leifman, Judge, Criminal Division of Miami-
  Dade County Court, 11th Judicial District, Miami, FL
  Oral Testimony.................................................     5
  Prepared Statement.............................................     8
Mr. Phillip Jay Perry, Court Participant, Bonneville Mental 
  Health Court, Boise, ID
  Oral Testimony.................................................    12
  Prepared Statement.............................................    13
Sheriff David G. Gutierrez, Lubbock County Sheriff's Office, 
  Lubbock, TX
  Oral Testimony.................................................    14
  Prepared Statement.............................................    15
Lieutenant Richard Wall, Los Angeles Police Department, Los 
  Angeles, CA
  Oral Testimony.................................................    18
  Prepared Statement.............................................    20
Mr. Leon Evans, Executive Director, Jail Diversion Program, San 
  Antonio, TX
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26


      CRIMINAL JUSTICE RESPONSES TO OFFENDERS WITH MENTAL ILLNESS

                              ----------                              


                        TUESDAY, MARCH 27, 2007

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:06 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Robert 
Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, Johnson, Jackson 
Lee, Davis, Forbes, Sensenbrenner, Coble, and Chabot.
    Staff present: Veronica Eligan, Professional Staff Member; 
Ameer Gopalani, Majority Counsel; Bobby Vassar, Majority Chief 
Counsel; and Michael Volkov, Minority Counsel.
    Mr. Scott. The Subcommittee will now come to order.
    And I am pleased to welcome you to today's hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security, on 
criminal justice responses to offenders with mental illness.
    We are at a crossroads with regard to treatment of people 
with mental disorders who are brought in to the criminal 
justice system. People with mental illnesses are 
overrepresented compared to their percentage in the general 
population in all parts of the criminal justice system; in 
their contact with law enforcement and the courts and jails and 
in prison.
    A recent Department of Justice study found that while 
approximately 5 percent of the U.S. population has a serious 
mental illness, 16 percent of the prison or jail population has 
such illnesses. This large proportion of mentally ill persons 
in our jails and prisons is part of a growing trend to transfer 
individuals who used to be tracked for mental health treatment 
straight to jail.
    One problem contributing to this trend is the lack of 
programs which train law enforcement to identify and properly 
handle offenders with mental illness. Mentally ill offenders 
create enormous problems for both arresting officers and 
holding facilities, even for temporary periods. Traditional law 
enforcement strategies can confuse and threaten people with 
mental illnesses, which can lead to behavior that sometimes 
results in severe injury to these individuals and to the 
officers.
    This is why many communities have created crisis 
intervention teams, one form of collaboration between law 
enforcement and the mental health system. There are somewhere 
between 150 to 200 law enforcement agencies in this country 
with crisis intervention teams.
    These teams have proven to work. Through them, officers not 
only spend less time admitting individuals with mental illness 
as compared to arresting them, but there is also a decreased 
number of injuries resulting from and to police.
    Another problem contributing to the high incidence of 
offenders with mental illness in jail is simply the lack of 
mental health treatment, particularly for non-violent 
offenders. Once incarcerated, people with mental illness have 
difficulty obtaining adequate treatment. They are at high risk 
of suicide, and they may be preyed upon by other inmates.
    Unfortunately, reports in the media tend to focus on 
sensational, violent crimes committed by people with mental 
illness. Even though there are offenders with mental illness 
who commit serious crimes for which arrest, adjudication and 
incarceration are entirely appropriate, the majority of those 
with mental illnesses are those who are incarcerated at low-
level, non-violent offenses and they require a more 
comprehensive approach than simple incarceration.
    And one approach to this problem that we will be exploring 
in this hearing is the establishment of mental health courts. 
They are modeled after drug courts, and mental health courts 
divert select defendants with mental illnesses into judicially 
supervised community-based treatment.
    All mental health courts are voluntary. In the 1990's, only 
a few court-based programs identifying themselves as mental 
health courts were accepting cases. By 2006, 113 mental health 
courts were operational.
    These courts have demonstrated success. For example, a 
study of defendants of the mental health court in Broward 
County, Florida, found that they were twice as likely to 
receive services for their mental illnesses, they were no more 
likely to commit new crimes, and they spent 75 percent fewer 
days in jail compared to defendants with similar mental 
illnesses and criminal charges who did not participate in the 
mental health court.
    Finally, in this hearing, we hope to explore the need for 
additional funding under the Mentally Ill Offender Treatment 
Crime Reduction Act. This act provides funding for a wide range 
of programs, including mental health courts and crisis 
intervention teams. Five million dollars was appropriated for 
fiscal year 2006 and 2007, well short of the $50 million 
authorized by the act. This hearing will hopefully bring to 
light how inadequate this current funding level is.
    Repeated arrests and incarceration of low-level, non-
violent offenders whose mental health needs are not adequately 
addressed perpetuates a cycle of criminal justice involvement, 
diverts attention from more serious crimes and does not 
necessarily respond to the underlying cause of the offense. 
Having trained law enforcement officials and alternative mental 
health facilities not only saves injuries, money and 
frustration for all involved, and even lives, but it also gets 
an offender the proper treatment and puts them on the path 
toward productive, fulfilling lives.
    And it is my pleasure, at this point, to recognize our 
esteemed Ranking Member, my colleague from Virginia, 
Congressman Forbes, for his opening statement.
    Mr. Forbes. Thank you, Congressman Scott, and I appreciate 
your holding this oversight hearing on criminal justice 
responses to offenders with mental illness.
    As always, we appreciate our witnesses being here. And 
thank you, gentlemen, for taking your time and effort to be 
here today.
    The problem of mentally ill offenders is growing. 
Unfortunately, mentally ill offenders who are unable to obtain 
adequate services have been swept up into the wheels of the 
criminal justice system. This has had a dramatic impact on 
State and local criminal justice systems, which were not 
designed to handle the large number of mentally ill offenders.
    Approximately 5 percent of the U.S. population has a 
serious mental illness. Sixteen percent of the prisoner jail 
population, or over 1 million prisoners, have a serious mental 
illness. The Los Angeles County jail and the New York Rikers 
Island jail hold more people with mental illnesses than the 
largest psychiatric in-patient facilities in the United States.
    At the same time, according to a National Institute of 
Justice survey, 64 percent of jail administrators and 82 
percent of probation and parole agency directors indicated the 
need for improved medical services for offenders with mental 
illnesses. More than one-fifth of jails have no access to any 
mental health services at all.
    Many criminal justice agencies are unprepared to meet the 
comprehensive treatment and needs of individuals with mental 
illness. Poorly trained law enforcement officers can be put in 
danger when interacting with individuals in crisis and may 
spend crucial labor hours trying, often unsuccessfully, to 
connect these individuals to treatment. Jails and prisons 
require extra staffing and treatment resources for inmates with 
mental illnesses.
    In addition, mentally ill offenders can be affected by 
incarceration in many different ways from the general 
population offenders.
    There is no question that public safety is critical and 
that innocent people must be protected from mentally ill 
offenders. The public safety can be served by a more strategic 
approach when dealing with mentally ill offenders. And, 
fortunately, there are effective models for the Subcommittee to 
examine and support.
    The Justice and Mental Health Collaboration Program was 
created by the Mentally Ill Offender Treatment and Crime 
Reduction Act of 2004. The act needs to be reauthorized, and I 
look forward to working with Chairman Scott in reauthorizing 
this act and adding new and effective tools to the existing 
act.
    The Mental Health Collaboration Program increases public 
safety by facilitating collaboration among the criminal 
justice, juvenile justice and mental health treatment and 
substance abuse systems to increase access to treatment for 
this unique group of offenders. A mere $5 million, as Chairman 
Scott mentioned, has been appropriated for the program in 2006 
and this current fiscal year.
    The importance of collaboration among stakeholders involved 
in mental health services and criminal justice agencies is 
critical to improving the treatment of mentally ill offenders.
    Such collaboration efforts should include working with the 
mental health community to provide training, direct assistance 
and treatment, working with emergency hospitals to which police 
may take people in crisis, appointing police liaison officers 
to the mental health community, training police officers on 
responses to incidents involving offenders with mental illness, 
initiating assisted outpatient treatment to encourage adherence 
to prescribed treatment, establishing crisis response sites 
where police can transport people in mental health crisis as an 
alternative to hospital emergency rooms or jails and 
establishing jail-based diversion programs before or after 
booking to remove detainees with mental illness from jails to 
treatment settings and establishing mental health courts to 
make adjudication and sentencing decisions tailored to the 
needs of each defendant.
    Mr. Chairman, I look forward to hearing from today's 
witnesses, and, once again, thank you for holding this hearing. 
And I yield back.
    Mr. Scott. Thank you.
    If there are no other opening statements, without 
objection, we will ask others to introduce their statements for 
the record.
    Our witnesses today, comprise a distinguished panel.
    Our first witness will be the Honorable Steven Leifman, who 
serves as associate administrative judge of the Miami-Dade 
County Courts Criminal Division, and is currently on special 
assignment to the Florida Supreme Court as special counsel on 
criminal justice and mental health. In addition to these posts, 
he also chairs the Florida Supreme Court Mental Health 
Subcommittee, as well as the Mental Health Committee for the 
11th Judicial Circuit of Florida.
    In recognition of his efforts, he has received numerous 
awards, including the 2003 president's award from the National 
Alliance for the Mentally Ill and the 2003 distinguished 
service award from the National Association of Counties.
    He received his bachelor's degree from American University 
and law degree from Florida State University.
    Our next witness, Phillip Jay Perry, is a participant in 
the Bonneville Mental Health Court of the Idaho Supreme Court. 
The court was established in August of 2002, is located in 
Idaho Falls, ID, and serves up to 30 individuals who come 
before the court with felony or serious misdemeanor offenses 
and who are diagnosed as seriously or persistently mentally 
ill. He is a graduate of South Fremont High School in Saint 
Anthony, Idaho.
    The next witness will be Sheriff David G. Gutierrez, who 
was the sheriff of Lubbock County in Texas. He has 30 years of 
law enforcement experience in the sheriff's office and is 
currently serving his second full term as county sheriff.
    In addition to his current position, he was appointed by 
Texas Governor Rick Perry as presiding officer of the Texas 
Commission on Jail Standards. He is on the Board of Mental 
Health America of Texas, an affiliate of the National Mental 
Health Association and is a member of the Texas Task Force on 
Mental Health.
    He holds a bachelor's degree in occupational education, 
specializing in criminal justice and human services, from 
Wayland Baptist University in Plainview, TX.
    Our next witness will be Lieutenant Richard Wall, a police 
lieutenant with the Los Angeles Police Department. He has 
served the Los Angeles Police Department since his appointment 
as a police officer in 1981 and serves as the department's 
mental illness project coordinator.
    He received his bachelor's degree from California State 
University at Long Beach, a Fulbright fellowship from the 
National Police Staff College in Bramshill, England and is 
currently a candidate for a master's degree in history from 
California State University at Long Beach.
    Our final witness will be Mr. Leon Evans, executive 
director of the Center for Health Care Services in San Antonio, 
Texas. Prior to holding this position, he served as the 
director of the Community Services Division of the Texas 
Department of Mental Health and Mental Retardation in Austin 
and is chief executive officer of the Dallas County Medical 
Health Mental Retardation Center in Dallas, Texas, and was 
executive director of the Tri-County Mental Health and Mental 
Retardation Services in Conroe, Texas.
    He holds both a bachelor's and master's degree in special 
education from the University of Oklahoma.
    Each of our witnesses has already submitted written 
statements to be made part of the record, and I would ask each 
witness to summarize your testimony in 5 minutes or less. And 
to help you stay within the time, there will be little color-
coded lights that will start off green, will go to yellow, and 
when your time is up, they will turn red.
    I recognize the gentleman from North Carolina, Mr. Coble, 
and the Chairman of the full Committee, Mr. Conyers, with us 
today.
    And before we start with our witnesses, we will start with 
a video, and we will play that at this time.
    [Video presentation.]
    Mr. Scott. Thank you.
    Judge? I think we have seen you before.

  TESTIMONY OF THE HONORABLE STEVEN LEIFMAN, JUDGE, CRIMINAL 
 DIVISION OF MIAMI-DADE COUNTY COURT, 11TH JUDICIAL DISTRICT, 
                           MIAMI, FL

    Judge Leifman. I think so.
    I want to thank the reporter, Michele Gillen, from CBS in 
Miami, who really helped expose just a horrible, horrible 
issue. As you see, it is a pretty sobering thing to watch.
    Mr. Chairman and Members of the Subcommittee, we want to 
thank you very, very much for holding a hearing on this very 
difficult and critical issue that really for so long has just 
not see the light of day.
    When I became a judge, I had no idea I was becoming the 
gatekeeper for the largest psychiatric facility in Florida that 
was our jail.
    In 2005, the Miami-Dade County grand jury actually issued a 
report that was entitled, ``The Criminalization of Mental 
Illness: A Recipe for Disaster, a Prescription for 
Improvement.'' After a year of investigation, the grand jury 
disclosed what most of us have known in the criminal justice 
system for many, many years: We have a mental health crisis in 
our communities, in our States and in this country.
    As surgeon general, Dr. David Satcher once called mental 
illness the ``silent epidemic of our times,'' unless, of 
course, you are a judge in the criminal justice system, where 
every single day you see a parade of misery brought on by the 
consequences of untreated mental illness.
    When our country was first founded until the early 1800's, 
we took people who had serious mental illnesses and put them in 
jail, because, frankly, we just did not know better. In the 
late 1800's, a nun was visiting a Massachusetts jail and she 
came across several men who were literally freezing to death in 
the jail. They had no charges pending, but they were there 
because they had mental illness and the community didn't know 
what else to do with them.
    She was so horrified by this scene that she actually began 
a national movement to take people from jail and send them to 
hospitals. And by 1900, every State had a psychiatric facility 
in our country. However, because there was no real treatment, 
there was no psychiatry, there was no medication, these 
hospitals grew at a ridiculous rate and they became, frankly, 
houses of horror.
    The normal medication became insulin, electric shock 
therapy, people were getting hurt, and people were dying. In 
the 1950's, the first psychotropic medication was developed. 
That was Thorazine, and, unfortunately, while it has certain 
positive uses, it is certainly no cure.
    In what would have been his last public bill signing, in 
1963, President Kennedy signed a $3 billion authorization that 
would have created a national network of community mental 
health facilities for the whole country. The idea was that they 
would take people in these houses of horrors, release them to 
the communities and make sure they had Thorazine.
    Well, unfortunately, and tragically, following the 
president's assassination and the escalation of the Vietnam 
war, not one penny of the $3 billion was ever appropriated. 
However, during that same period of time, a whole slew of 
Federal lawsuits were filed against the States for operating 
these horrible facilities.
    And in 1972, the first major case reached the Federal 
court. In what was really, and still remains, a phenomenal 
opinion, the Federal court issued an opinion with two parts. 
The first part of the opinion basically orders the 
deinstitutionalization of the State hospitals. But the second 
part, which is probably the more important and interesting 
part, tells the States that if you are going to order the 
deinstitutionalization, that you shall, you are required to 
provide community-based treatment for the people you are 
releasing.
    Unfortunately, my State, like the rest of the States, only 
read the first half of the opinion, and because no money was 
ever appropriated to President Kennedy's national network of 
community mental health facilities, there was absolutely 
nowhere to absorb this population that was now getting 
released.
    The impact has been staggering. In 1955, there were some 
560,000 people in State hospitals around the country. Today, 
there are between 40,000 and 50,000 people in those same 
hospitals. However, last year, more than 1 million people with 
serious mental illnesses were arrested, we have between 300,000 
and 400,000 in jail and prisons today and another half a 
million people with serious mental illnesses on probation. 
Jails and prisons have become the asylums of the new 
millennium.
    And there are two sad and horrible ironies to this. Number 
one is, we never deinstitutionalized. What we in fact did is we 
created the trans-institutionalization. We transferred people 
from these really horrible hell holes of State facilities to 
these really horrible jails that you have seen today. And 
although this is a horrible facility in Miami-Dade, it is 
nothing unique to most facilities around our country.
    The second, and sadder cruel irony, is that 200 years have 
now passed and jails are once again the primary facilities for 
people with mental illnesses in this country. It is the one 
area in civil rights we have actually gone backwards.
    As a consequence of this situation, we have seen 
homelessness increase, we have seen police injuries increase, 
we have seen police shootings increase, we have wasted tax 
dollars, and, in effect, we have made mental illness a crime in 
this country.
    In Florida, the police actually initiate more voluntary 
examinations than the total number of arrests for robbery, 
burglary and grand theft auto combined. In my own community, we 
have more than 20 percent of the people in our jail with 
serious mental illness. We have over 1,000 people on 
psychotropic medications every day.
    We are spending $100,000 daily to warehouse this 
population. Three of our nine floors of our main jail are now 
mental health. The conditions are not conducive for treatment. 
People with mental illnesses stay in jail eight times longer 
than someone without mental illness for the exact same charge, 
at a cost of seven times higher.
    We have also had 19 people die during an encounter with the 
police, who have serious mental illness, just since 1999.
    And while more and more judges are becoming involved in 
this issue, the reality is that none of us can fix the problem 
alone. It is going to take a collaborative effort between 
members of the judiciary and all the non-traditional 
stakeholders, such as the public defenders, the State 
attorneys, our local, State and Federal Government, which is 
exactly what the Mentally Ill Offender Treatment and Crime 
Reduction Act sets out to do.
    We were very fortunate in my community that we were able to 
receive a Substance Abuse and Mental Health Administration 
grant to do something similar.
    The results of our collaborative effort have absolutely 
been astonishing. We have been able to reduce our misdemeanor 
recidivism rate from over 70 percent to just about 20 percent. 
We are improving our public safety, we are reducing police 
injuries, our officers are getting back to patrol in about half 
the time it took to make an arrest, we are saving our county 
about $2.5 million annually, it is saving lives and in effect 
decriminalizing mental illness.
    We are hopeful with the legislation that you are looking at 
we will see similar successes nationally, and we will begin to 
accomplish what the Federal court set out to do 35 years ago.
    Thank you very, very much.
    [The prepared statement of Judge Leifman follows:]
               Prepared Statement of Judge Steve Leifman
    Mr. Chairman, Ranking Member Forbes, and Members of the 
Subcommittee:
    Thank you for the opportunity to testify before you today on the 
topic of ``Criminal Justice Responses to Offenders with Mental 
Illnesses,'' and the importance of continued funding of the Mentally 
Ill Offender Treatment and Crime Reduction Act of 2004 (MIOTCRA). My 
name is Steve Leifman, and I serve as Associate Administrative Judge 
for the County Court Criminal Division of the Eleventh Judicial Circuit 
located in Miami-Dade County, Florida.

The Problem:

    As a member of the judiciary, I have seen, first hand, the rampant 
effects of untreated mental illnesses on both our citizens and our 
communities. A former Surgeon General once called mental illness the 
silent epidemic of our times; however, for those who work in the 
criminal justice system nothing could be further from the truth. 
Everyday our courts, jails, and law enforcement agencies are witness to 
a parade of misery brought on by untreated mental illnesses. Because of 
lack of access to community-based care, our police, correctional 
officers, and courts have increasingly become the lone responders to 
people in crisis due to mental illnesses. In fact, jails and prisons in 
the United States now function as the largest psychiatric hospitals in 
the country.
    According to the National Alliance on Mental Illness, roughly 40% 
of adults who suffer from serious mental illnesses (SMI) will come into 
contact with the criminal justice system at some point in their lives. 
Unfortunately, these contacts result in the arrest and incarceration of 
people with SMI at a rate vastly disproportionate to that of people 
without mental illnesses.
    Often times, when arrests are made it is for relatively minor 
offenses or nuisance behaviors such as disorderly conduct or simple 
trespassing. Unfortunately, the result of incarceration tends to be a 
worsening of illness symptoms due to a lack of appropriate treatment 
and increased stress. Not only does this contribute to extended periods 
of incarceration resulting from disciplinary problems and the need to 
undergo extensive psychiatric competency evaluations, but it makes it 
all the more difficult for the individual to successfully re-enter the 
community upon release from custody.
    Over time, individuals may become entangled in a cycle of despair 
between periods of incarceration and jail-based crisis services, 
followed by periods of disenfranchisement in the community and 
inevitable psychiatric-decompensation. In addition to placing 
inappropriate and undue burdens on our public safety and criminal 
justice systems, this maladaptive cycle contributes to the further 
marginalization and stigmatization of some of our society's most 
vulnerable, disadvantaged, and underserved residents.
    With a prevalence rate 2 to 3 times greater than the national 
average, Miami-Dade County has been described as home to the largest 
percentage of people with serious mental illnesses of any urban 
community in the United States. It is estimated that at least 210,000 
people, or 9.1% of the general population, experience serious mental 
illnesses; yet fewer than 13% of these individuals receive any care at 
all in the public mental health system. The reason for this is that 
Miami-Dade County, like most communities across the United States, 
lacks adequate crisis, acute and long-term care capacity for people 
with serious mental illnesses.
    On any given day, the Miami-Dade County Jail houses between 800 and 
1200 defendants with serious mental illnesses. This represents 
approximately 20% of the total inmate population, and costs taxpayers 
millions of dollars annually. In 1985, inmates with mental illnesses 
occupied two out of three wings on one floor of the Pre-Trial Detention 
Center. Today, individuals with mental illnesses occupy 3 out of 9 
floors at the Pre-Trial Detention Center, as well as beds in 4 other 
detention facilities across the county. The Miami-Dade County Jail now 
serves as the largest psychiatric facility in the state of Florida. 
People with mental illnesses remain incarcerated 8 times longer than 
people without mental illnesses for the exact same offense, and at a 
cost 7 times higher. With little treatment available, many individuals 
cycle through this system for the majority of their adult lives; 
however, for some the outcome has been far more tragic. Since 1999, 19 
people experiencing acute episodes of serious mental illness have died 
as the result of altercations with law enforcement officers. The most 
recent event occurred less than two weeks ago.
    Unfortunately, the situation in Miami-Dade County is not unique to 
South Florida, nor is it the result of deliberate indifference on the 
part of the criminal justice system. Our law enforcement personnel were 
never intended to be primary mental health providers and our 
corrections facilities are ill-equipped to function as psychiatric 
hospitals for the indigent. The fact is we have a mental health crisis 
in our communities, in our states, and in this country; and our jails 
and prisons have become the unfortunate and undeserving ``safety nets'' 
for an impoverished system of community mental health care.
    In the State of Florida alone, approximately 70,000 people with 
serious mental illnesses requiring immediate treatment are arrested and 
booked into jails annually. In 2004 and 2005, the number of 
examinations under the Baker Act (Florida's involuntary mental health 
civil commitment laws) initiated by law enforcement officers exceeded 
the total number of arrests for robbery, burglary, and motor vehicle 
theft combined. Moreover, during these same years, judges and law 
enforcement officers accounted for slightly more than half of all 
involuntary examinations initiated. A 2006 report published by the 
National Association of State Mental Health Program Directors Research 
Institute found that Florida continues to rank 48th nationally in per 
capita spending for public mental health treatment. As a result, fewer 
than 25% of the estimated 610,000 adults in Florida who experience 
serious mental illnesses receive any care at all in the public mental 
health system.
    The National GAINS Center estimates that nationwide over one 
million people with acute mental illnesses are arrested and booked into 
jails annually. Roughly 72% of these individuals also meet criteria for 
co-occurring substance use disorders. On any given day, between 300,000 
and 400,000 people with mental illnesses are incarcerated in jails and 
prisons across the United States and another 500,000 people with mental 
illnesses are on probation in the community.
    The consequences of the lack of an adequately funded, systemic 
approach to these issues have included increased homelessness, 
increased police injuries, and increased police shootings of people 
with mental illnesses. With little treatment available, many 
individuals cycle through the system for the majority of their adult 
lives. In addition, the increased number of people with serious mental 
illnesses involved in the criminal justice system has had significant 
negative consequences for the administration of the judicial system, as 
well as public safety, and government spending generally. The cost to 
Miami-Dade County alone to provide largely custodial care to people 
with mental illnesses in correctional settings is roughly $100,000 a 
day, or more than $36 million per year.
    Unfortunately, the public mental health system in the United States 
is often funded and organized in such a way as to ensure that we 
provide the most expensive services, in the least effective manner, to 
fewest number of individuals (i.e, those in acute crisis). As a result, 
the system is arguably set up to fail. In many communities, for 
example, people who experience serious mental illnesses, but lack 
resources to access routine care in the community can only receive 
treatment after they have become profoundly ill and have crossed the 
unreasonable and catastrophic threshold of ``imminent risk of harm to 
self or others.'' At this point, the individual is typically eligible 
for crisis stabilization services, but nothing more. Once they are 
stabilized and no longer present as a ``risk of harm,'' they are often 
discharged back to the same community where they were unable to receive 
services to begin with, only to get sick again and require another 
episode of crisis stabilization services. The result is that instead of 
investing in prevention and wellness services, public mental health 
funds are disproportionately allocated to costly crises services and 
inpatient hospital care.

Historical Perspective:

    The current problems and weaknesses of the community mental health 
system can be traced to historical events that have shaped public 
policy and attitudes toward people with mental illnesses over the past 
200 hundred years. From the time the United States was founded until 
the early 1800's, people with mental illnesses who could not be cared 
for by their families were often confined under cruel and inhumane 
conditions in jails and almshouses. During the 19th century, a 
movement, known as moral treatment emerged which sought to hospitalize 
rather than incarcerate people with mental illnesses. Unfortunately, 
this well-intentioned effort failed miserably.
    The first public mental health hospital in the United States was 
opened in Massachusetts in 1833. The institution contained 120 beds, 
which was considered by experts at the time to be the maximum number of 
patients that could be effectively treated at the facility. By 1848, 
the average daily census had grown to approximately 400 patients, and 
the state was forced to open additional public mental health 
facilities. A similar pattern was seen across the country as more and 
more states began to open public psychiatric hospitals. By the mid-
1900's, nearly 350 state psychiatric hospitals were in operation in the 
United States; however overcrowding, inadequate staff, and lack of 
effective programs resulted in facilities providing little more than 
custodial care. Physical and mental abuses were common and the 
widespread use of physical restraints such as straight-jackets and 
chains deprived patients of their dignity and freedom.
    Around this same time, advances in psychopharmacology lead to the 
idea that people with mental illnesses could be treated more 
effectively and humanely in community-based settings. In 1963, 
legislation was signed which was intended to create a network of 
community-based mental health providers that would replace failing and 
costly state hospitals, and integrate people with mental illnesses back 
into their home communities with comprehensive treatment and services. 
In what would be his last public bill singing, President Kennedy signed 
a $3 billion authorization to support this movement from institutional 
to community-based treatment. Tragically, following President Kennedy's 
assassination and the escalation of the Vietnam War, not one penny of 
this authorization was ever appropriated.
    As more light was shed on the horrific treatment of people with 
mental illnesses at state psychiatric hospitals, along with the hope 
offered by advances in psychotropic medications, a flurry of federal 
lawsuits were filed which ultimately resulted in the 
deinstitutionalization of public mental health care by the Courts. 
Unfortunately, there was no organized or adequate network of community 
mental health centers to receive and absorb these newly displaced 
individuals. The result is that today there are more than five times as 
many people with mental illnesses in jails and prisons in the United 
States than in all state psychiatric hospitals combined.
    In 1955, some 560,000 people were confined in state psychiatric 
hospitals across the United States. Today fewer than 50,000 remain in 
such facilities. Over this same period of time, the number of 
psychiatric hospital beds nationwide has decreased by more than 90 
percent, while the number of people with mental illnesses incarcerated 
in our jails and prison has grown by roughly 400 percent. Over the last 
ten years, we have closed more than twice as many hospitals as we did 
in the previous twenty and, if this weren't bad enough, some of the 
hospitals that were closed were actually converted into correctional 
facilities which now house a disproportionate number of inmates with 
mental illnesses.
    The sad irony is that we did not deinstitutionalize mental health 
care. We allowed for the trans-institutionalization of people with 
mental illnesses from state psychiatric facilities to our correctional 
institutions, and in the process, made our jails and prisons the 
asylums of the new millennium. In many cases, the conditions that exist 
in these correctional settings are far worse than those that existed in 
state hospitals. The consequences of this system have been increased 
homelessness, increased police injuries, increased police shootings of 
people with mental illnesses, critical tax dollars wasted, and the 
reality that we have made mental illness a crime; or at the very least 
a significant risk factor for criminal justice system involvement. In 
200 years, we have come full circle, and today our jails are once again 
psychiatric warehouses. To be fair, it's not honest to call them 
psychiatric institutions because we do not provide treatment very well 
in these settings.
    What is clear from this history is that the current short-comings 
of the community mental health and criminal justice systems did not 
arise recently, nor did they arise as the result of any one 
stakeholder's actions or inactions. None of us created these problems 
alone and none of us will be able to solve these problems alone. As a 
society, we all must be a part of the solution.

The Solution:

    Just as I have been witness to the tragic effects of untreated 
mental illnesses, I have also had the privilege of observing and 
working with many dedicated and tireless individuals who are committed 
to bringing about transformation of the public mental health system and 
helping to ensure that a diagnosis of a mental illness is no longer a 
risk factor for arrest, incarceration, or worse.
    Across the United States, effective collaborations have been 
forged, involving diverse arrays of traditional and nontraditional 
stakeholders, such as providers, consumers, and family members within 
the mental health care, substance abuse treatment, and social services 
fields; law enforcement and corrections professionals; representatives 
from State and local governments and agencies; and members of the 
judiciary and legal community. These partnerships have established many 
successful, innovative initiatives serving people with mental illnesses 
involved in the justice system or at risk of involvement in the justice 
system, such as mental health courts, pre-trial diversion programs, 
jail re-entry programs, and specialized crisis response programs for 
law enforcement officers. In addition, the identification and 
implementation of promising programs and evidence-based practices such 
as assertive community treatment, intensive case management, integrated 
dual-diagnosis treatment, and supportive housing have resulted in more 
successful and adaptive integration for people with serious mental 
illnesses in the community.
    The Mentally Ill Offender Treatment and Crime Reduction Act of 2004 
(MIOTCRA), which authorized the Justice and Mental Health Collaboration 
Program, administered through the Bureau of Justice Assistance, U.S. 
Department of Justice, has been crucial to facilitating collaborative 
community-wide solutions to people with mental illnesses in the 
criminal justice system. Local communities across the United States 
that have received funding have been able to design and implement 
highly successful, collaborative initiatives between criminal justice 
and mental health systems. This funding has helped to reverse the 
criminalization of mental illnesses, improve public safety, reduce 
recidivism to jails and hospitals, minimize wasteful acute care 
spending, and allowed those with mental illnesses to live a life of 
recovery in the community. It is imperative that Federal funding of 
such criminal justice/mental health initiatives be continued.
    I'm proud to report that Miami-Dade County has been the recipient 
of Federal support that has helped place my community at the forefront 
in the nation in working to de-criminalize mental illnesses and resolve 
this problem of untreated mental illnesses. Six years ago, the Eleventh 
Judicial Circuit Criminal Mental Health Project (CMHP) was formed 
following a two-day summit meeting of traditional and non-traditional 
stakeholders who gathered to review how the Miami-Dade community dealt 
with individuals involved in the criminal justice system due to 
untreated mental illnesses. The stakeholders were comprised of law 
enforcement agencies, the courts, public defenders, state attorneys, 
social services providers, mental health professionals, consumers, and 
families. The outcome of the summit was both informative and alarming. 
Many participants were surprised to find that a single person with 
mental illness was accessing the services of almost every agency and 
professional in the room; not just once, but again and again. 
Participants began to realize that people with untreated mental 
illnesses may be among the most expensive population in our society not 
because of their conditions, but because of the way they are treated.
    The result of this summit was the establishment of the CMHP, which 
was designed and implemented to divert people with serious mental 
illnesses who commit minor, misdemeanor offenses away from the criminal 
justice system and into community-based care. The program operates both 
pre-booking and post-booking jail diversion programs; and brings 
together the resources and services of healthcare providers, social-
service agencies, law enforcement personnel, and the courts.
    In 2003, the CMHP in collaboration with the Florida Department of 
Children and Families received a Federal Targeted Capacity Expansion 
grant from the Substance Abuse and Mental Health Services 
Administration's Center for Mental Health Services. With technical 
assistance provided by The National GAINS Center's TAPA Center for Jail 
Diversion, this funding enabled significant growth within the CMHP 
which has enabled more effective and efficient response to people with 
mental illnesses involved in the criminal justice system or at risk of 
involvement in the criminal justice system.
    As a result of the services and training provided by the CMHP, 
individuals in acute psychiatric distress in Miami-Dade County are more 
likely to be assisted by law enforcement officers in accessing crisis 
services in the community without being arrested. Individuals who are 
arrested and booked into the jail are evaluated, and if appropriate, 
transferred to a crisis stabilization unit within 24-48 hours. Upon 
stabilization, legal charges are typically dismissed, and individuals 
are assisted at discharge with accessing treatment services, housing, 
and other entitlements in the community.
    The CMHP has resulted in substantial gains in the effort to reverse 
the criminalization of people with mental illnesses, and serves as a 
testament to the value and potential of true cross-systems 
collaboration. Key outcomes include reductions in recidivism among 
misdemeanant offenders in acute psychiatric distress from over 70% 
prior to program implementation to 22% last year, improved public 
safety, reduced police injuries, millions in tax dollars saved, and 
lives saved. To date, more than 1,100 law enforcement officers in the 
county from 25 of the 32 agencies in operation, have been trained to 
more effectively identify and respond to mental health emergencies. The 
idea was not to create new services, but to merge and blend existing 
services in a way that was more efficient, pragmatic, and continuous 
across the system. The Project works by eliminating gaps in services, 
and by forging productive and innovative relationships among all 
stakeholders who have an interest in the welfare and safety of one of 
our community's most vulnerable populations.
    It is imperative that communities be given the resources to work 
collaborative to identify and implement promising programs and evidence 
based practices that will improve the response of the public mental 
health system and the criminal justice system to people with mental 
illnesses and/or co-occurring substance use disorders involved in the 
criminal justice system or at risk of involvement in the criminal 
justice system.
    The health and well-being of our communities across the United 
States are inextricably linked to the health and well-being of our 
residents. To the extent that we continue to allow people with mental 
illnesses to revolve in cycles of disenfranchisement and despair, our 
communities will suffer. To the extent that the interventions and 
services offered are fragmented and do not embrace the concepts of 
recovery and hope, our communities will suffer. There is a need for a 
coordinated effort to replicate and expand promising programs and 
strategies targeting people with mental illnesses involved in the 
criminal justice system or at risk of involvement in the criminal 
justice system throughout the United States.

    PLEASE SUPPORT CONTINUED FUNDING OF THE MENTALLY ILL OFFENDER 
TREATMENT AND CRIME REDUCTION ACT OF 2004.

    Mr. Scott. Thank you. We apologize that we didn't give you 
the 1-minute notice. I think we have it figured out now.
    Judge Leifman. Thank you. Did I make my time? [Laughter.]
    Mr. Scott. We are going to continue with the--we have a 
series of votes coming up, so we will hear from one more 
witness, then we will have to break for a few minutes.
    Mr. Perry?

 TESTIMONY OF PHILLIP JAY PERRY, COURT PARTICIPANT, BONNEVILLE 
                 MENTAL HEALTH COURT, BOISE, ID

    Mr. Perry. I would like to express my appreciation for 
being invited to speak here today.
    I have had urges to hurt people since I was in high school. 
It wasn't until I dropped out of college and tried to jump off 
a grain elevator to kill myself did I begin to realize that I 
had a problem. My parents, who have always been very supportive 
of me and my illness, coaxed me into going and talking to 
someone about my problems after that first incident.
    That was the first of many times to come that I was 
institutionalized in a mental health facility. It was there 
that I found out that everyone doesn't hear voices to tell them 
to do things like I do. I was diagnosed with a mental illness, 
and that diagnosis was labeled Schizoaffective Disorder, which 
essentially means that when not properly medicated, I am 
delusional with a mood disorder and that disorder being 
clinical depression.
    This was also the first of four times that I have been 
court committed to the State psychiatric hospital. There, they 
put me on a lot of medications with side effects that I wasn't 
too fond of. So when I got out of the hospital, I stopped 
taking my medications because I found that marijuana helped 
ease my voices just as good as the medications did, without the 
side effects that no one would want to live with for the rest 
of their lives.
    There was, however, one bad aspect of the marijuana use: It 
was illegal, which means I could get in trouble with the law 
for using it. And that is exactly what I did. I have counted it 
up and, including the incarcerations in correctional 
facilities, I have been institutionalized 26 times in my adult 
life. That would be approximately 14 years.
    Since the stays in the correctional facilities were always 
a result of my drug use, which, in turn, was a factor in trying 
to help self-medicate my voices, all these 
institutionalizations were a direct result of my illness.
    Every time I have been put in one of the places, they have 
put me in a drug and alcohol program because I have a drug and 
alcohol problem. Even in jail they had the AA program, but it 
seemed no matter how hard I tried, every time I got out I would 
revert back to my old habits and relapse and end up using again 
no matter how much sober time I had under my belt.
    Fortunately, for me, though, I was introduced to the Mental 
Health Court Program this last time that I was in jail. This 
program has changed my life for the best. I feel I can live a 
sober and relatively mentally stable life because of the tools 
and skills that the program has taught me. I do feel the 
program is a great program in itself.
    I can't speak for any of the other mental health programs 
around the United States, but they wouldn't be as good as ours 
is if it weren't for the people like Judge Moss, Eric Olson and 
Randy Rodriquez. What I am trying to say is that it wouldn't be 
as successful if it weren't for the people who run it like the 
ones I mentioned, who are caring, compassionate people.
    [The prepared statement of Mr. Perry follows:]
                Prepared Statement of Phillip Jay Perry
    I've had ``urges'' to hurt people since I was in high school. It 
wasn't until I dropped out of college and tried to jump off a grain 
elevator to kill myself did I begin to realize that I had a problem. My 
parents who have always been very supportive of me and my illness 
coaxed me into going and ``talking'' to someone about my problems after 
that first incident.
    That was the first of many times to come that I was to be 
institutionalized in a mental health facility. It was there that I 
found out that everyone doesn't hear voices to tell them to do things 
like I do. I was diagnosed with a mental illness and that diagnosis was 
labeled Schizoaffective Disorder which essentially means that when not 
properly medicated I am delusional with a mood disorder. That disorder 
being clinical depression.
    This was also the first of four times that I've been court 
committed to the state psychiatric hospital. There, they put me on a 
lot of medications with side-effects that I wasn't too fond of. So when 
I got out of the hospital, I stopped taking my medications because I 
found that marijuana helped ease my ``voices'' just as good as the 
medications did without the side effects that no one would want to have 
to live with for the rest of their lives.
    There was, however, one bad aspect of the marijuana use. It was 
illegal. Which means I could get in trouble with the law for using it. 
And that is exactly what I did. I've counted it up and including the 
incarcerations in correctional facilities, I've been institutionalized 
26 times in my adult life. Since the stays in the correctional 
facilities were always a result of my drug use which in turn was a 
factor in trying to help self-medicate my ``voices,'' all these 
institutionalizations were a direct result of my illness.
    Every time I've been put in one of the places they have put me in a 
drug and alcohol program because I have a drug and alcohol problem. 
Even in jail they had the AA program, but it seemed no matter how hard 
I tried, every time I got out I would revert back to my old habits and 
relapse and end up using again no matter how much sober time I had 
under my belt.
    Fortunately for me though, I was introduced to the Mental Health 
Court Program the last time I was in jail. This program has changed my 
life for the best. I feel I can live a sober and relatively mentally 
stable life because of the tools and skills that the program has taught 
me. I do feel the program is a great program in itself. I can't speak 
for any of the other mental health court programs, but they wouldn't be 
as good as ours is if it weren't for the people like Judge Brent Moss, 
Eric Olson, and Randy Rodriquez. What I'm trying to say is that it 
wouldn't be as successful if it weren't for the people who run it like 
the ones I mentioned, who are caring, compassionate people.

    Mr. Scott. Well, thank you very much. Thank you.
    And, Sheriff, we will be back in about--I think we have one 
15-minute--we have four votes, so it will probably be close to 
half an hour.
    [Recess.]
    Mr. Scott. The Committee will come to order, and I 
appreciate your patience.
    Sheriff Gutierrez?

           TESTIMONY OF SHERIFF DAVID G. GUTIERREZ, 
          LUBBOCK COUNTY SHERIFF'S OFFICE, LUBBOCK, TX

    Sheriff Gutierrez. Mr. Chairman, Vice Chairman, 
distinguished Members of the Subcommittee, my name is David 
Gutierrez, sheriff of Lubbock County. I appreciate the 
opportunity to speak on the mental health issues in the 
criminal justice system.
    As sheriff, I deal with the frontline issues; as Texas 
sheriff, with 254 counties in the State of Texas. In my lengthy 
law enforcement experience, I have recognized and understood 
the initial impact on the frontline system. As sheriff and the 
keeper of the jail, we also, I also understand, as well as many 
sheriffs across the country, the enormous responsibility, the 
costly responsibility of maintaining the mental health issues 
in detention facilities.
    In Lubbock County, law enforcement on the front end, the 
peace officer is trained to take care of the situation, the 
problem. What we have found is, as sheriff, looking at the 
facility and the number of assaults, arrests, the number of 
suicide attempts and actual suicides in a detention facility 
concern me greatly.
    We pulled in our local mental health provider to look at a 
memorandum of understanding when I became sheriff, and what we 
did at that time was coordinate from the front end level with 
the local mental health providers to form a memorandum of 
understanding and we dealt with to provide on-call, on-site 
assistance by their crisis intervention counselors to come to 
the scene when a law enforcement officer is dealing with a 
situation which he may believe may be the result of unusual 
behavior.
    Number two is, if the individual is arrested and brought 
into the county jail, that that crisis team, once it is 
recognized by the detention officer, that the crisis team is 
called and arrive within 4 hours at the county jail to assist 
us in the continuum of care, to help us evaluate that 
individual. We also treat all individuals as indigents so that 
care services can be provided for them.
    Now, while this MOU was just the beginning step locally, it 
is not the end. As sheriff and chairman of the Texas Commission 
on Jail Standards, we are looking at the whole State of Texas. 
The legislature has directed the Texas Commission on Jail 
Standards to look at the frontline issues across the State when 
it comes to mental health issues.
    Early in the introduction, you have stated all the true 
concerns that we are facing as law enforcement officers across 
the country, and as a result of that, we are looking statewide 
at the front end.
    And the legislature directed the Texas Commission on Jail 
Standards to look at the issues. What we have found is that in 
the institutional division, the prison system in Texas, there 
is a chart here that out of 151,000 individuals incarcerated in 
the State of Texas, 45,000 were actually in fact consumers of 
the mental health system. They were actually patients at one 
time of the State mental health system--45,000, 30 percent. 
This was the result of a 2005 report that the legislature 
performed on the prison system. The Texas county State system, 
the county system, there are over 70,000 individuals.
    When looking at the 45,000, those individuals come in from 
the frontline, on the street, from local cities and counties 
and sent to the State institution. What we need to identify, 
and what we are identifying this time, as the chairman of the 
Subcommittee that oversaw the 254 counties and the 
recommendations to the legislature, is that we oversee the 
county jails and develop a medical assessment, suicidal mental 
health evaluation at the intake, when an individual is 
arrested, also to cross-reference the statewide care system, 
which is a statewide database for all individuals who have 
received treatment in the State mental health system, to 
identify cross-reference with that database to determine if in 
fact they are mental health consumers when they arrive into the 
beginning of the criminal justice system. So in that place, we 
may possibly divert these individuals.
    We are also requiring every county jail to have a diversion 
plan and a memorandum of understanding with their local mental 
health provider. That means to get them to communicate, to 
talk, to assist them in the continuum of care and medical 
protocol for their medical issue so that we can continue that 
care throughout the criminal justice system and possibly divert 
them from the criminal justice system.
    My concern is, when individual justice must be done, 
individuals that violate the law must be incarcerated. The 
problem is, did the individual intentionally and knowingly 
violate the law or was it a result of a mental health 
disability? If that in fact is the case, we must deal with the 
mental health issue prior to dealing with the violation of the 
law.
    I want to thank you for allowing me to be here today, and 
thank you for your commitment to this issue. There are millions 
of individuals, particularly families, who have been impacted 
by the lack of appropriate care in facilities for the men and 
women with mental health impairments.
    Too often an individual with mental health impairments 
become the responsibility of the criminal justice system, 
because it is easier and safer to have them behind bars rather 
than in society. And with your help today, we can work together 
to create some State and national guidelines to divert these 
individuals and to assist them with proper care.
    Thank you.
    [The prepared statement of Sheriff Gutierrez follows:]
                Prepared Statement of David G. Gutierrez
    Mr. Chairman, Vice-Chair, and distinguished Members, my name is 
David Gutierrez, Sheriff of Lubbock County, Texas. I want to thank you 
for the opportunity to speak to you about some serious issues we are 
facing in the criminal justice system today. As a Sheriff and a 30-year 
veteran of law enforcement, I have seen our criminal justice system 
evolve and have faced the tremendous challenges in the growth of not 
only our law enforcement on the front line--the first responders--but 
in the growth of our detention and institutional systems.
    In Texas, as in many states, the Sheriff is the keeper of the jail. 
While we continue to provide law enforcement services and maintain 
peace in the county, the Sheriff receives all individuals arrested by 
every peace officer, including city police officers, county deputies, 
state police, and federal agencies. Law enforcement officers are 
trained to maintain the peace and arrest individuals when laws are 
violated. During initial contact by law enforcement officers, many 
individuals interviewed may be disoriented and become combative and 
result in additional charges, such as Aggravated Assault on a Peace 
Officer or Attempted Capital Murder on a Peace Officer, being added to 
further compound the original breach of the peace. These charges, while 
valid, may be the result of a mental health or special needs issue. 
Most peace officers across the country are not trained on recognizing 
these symptoms.
    Once arrested, the individual is transported to the local county 
jail, where they are processed and the uncooperative individual is then 
treated accordingly. Additional charges may be added there if a 
detention officer is assaulted.
    The reality is that the jails and prisons of criminal justice 
systems nationwide have become the institutions at which individuals 
with mental impairments/special needs are placed. There are no 
standardized methods used to identify them prior to or during the 
incarceration process. When mentally impaired offenders arrive at 
correctional facilities the jail staff, in most cases, does not have 
the professional training or understanding to address their needs or 
the circumstances surrounding their incarceration. As a result, 
attempted and achieved suicides, inmate-to-inmate assaults and inmate-
to-officer assaults have dramatically increased in our jail and prison 
facilities.
    In 1998, in Lubbock County, Texas, a ``Memorandum of 
Understanding'' (MOU), was developed with the Regional Mental Health 
and Mental Retardation unit to:

        <bullet>  Provide on-call Crisis Intervention Counselors to 
        come to the scene when law enforcement officers believe the 
        suspect being detained may have a mental disorder to indicate a 
        need for diversion prior to arrest.

        <bullet>  Utilize an on-site mental health assessment at the 
        correctional facility to determine if a suspect has a possible 
        mental health issue, and if that assessment indicates a mental 
        health issue, diversion to a local mental health facility could 
        be an option in lieu of incarceration.

        <bullet>  If jail officials, during the booking process, have 
        reason to believe an individual may have a mental health issue, 
        the Crisis Intervention team will arrive within 4 hours at the 
        jail facility and interview the individual for mental health 
        services

        <bullet>  All individuals arrested are treated as indigents 
        while incarcerated and receive treatment and medication for 
        continuum of care.

    The MOU in Lubbock was a major step in assisting individuals 
entering the criminal justice system with mental health/special needs 
issues; this was just the beginning of a front line attempt to an 
enormous problem. One of the most pressing problems is that even though 
we have diversion plans in effect there are no diversion facilities 
statewide to place these individuals. In my opinion, this is one of the 
crucial areas that we are deficient in.
    While we, as Sheriffs', dealt with these issues, the State of Texas 
was not naive to these issues. In 1996, the Texas State Legislature 
statutorily allowed medical information, in accordance with the federal 
Health Insurance Portability and Accountability Act, to be disseminated 
between the medical profession and the criminal justice system. This 
allowed for a continuum of care for individuals which are incarcerated.
    In 2006, the Texas Department of Criminal Justice and the 
Department of State Health Services cross-referenced each other's 
offender/client databases to establish a prevalence rate of offenders 
who were former or current clients of the public mental health system. 
The following is the result of the state's cross referencing:
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In addition, a 2005 report prepared by the Texas Commission on Jail 
Standards, found that 29% of inmates sentenced to prison had been 
identified as being a former mental health client, but had not been 
identified as an individual with mental health issues while at the 
county jail when processed.
    Following those findings, a committee directed by the Texas 
Legislature was formed to determine what can be done to appropriately 
handle the prevalence of offenders with mental health impairments and 
the lapses in identification, along with other issues. The committee 
recommended the following:

        <bullet>  All 254 Counties and their respective Sheriffs' 
        Offices in Texas develop and have a MOU and Diversion Plan for 
        individuals with mental impairments with the 41 Regional Mental 
        Health and Mental Retardation units;

        <bullet>  That the Texas Commission on Jail Standards oversee 
        as part of annual jail inspections:

          <bullet>  A medical screening form is part of the initial 
        intake;

          <bullet>  A cross reference with the state's C.A.R.E. system 
        is performed on all individuals arrested to determine if an 
        individual is a client of the public mental health system. This 
        will assist law enforcement, jail officials, the public 
        defender and the county/district attorney's offices in the 
        adjudication of their cases.

        <bullet>  That the C.A.R.E. system be made available by 
        computer to be accessed by any Texas law enforcement officers. 
        This information should be available immediately while the 
        officer is making contact with the individual/suspect to help 
        determine an appropriate course of action by the officer for 
        possible diversion and;

        <bullet>  That all 80,000 Texas Peace officers have Crisis 
        Intervention Training as part of their 40 hours of state-
        mandated continuing education. This would assist with early-
        assessment during the initial contact with an offender and 
        possible diversion to the criminal justice system.

    The impact to the families of mentally impaired offenders can be, 
and too frequently is, catastrophic. Many families with a mentally 
impaired family member turn to the law enforcement community as a last 
result, no longer being able to deal with the individual's violent 
tendencies. This cry for help usually comes at a point of calamity with 
their mentally impaired family member. Due to their extreme or erratic 
behavior, many offenders with mental impairments are injured or killed 
while in contact with law enforcement during this time of crisis. Law 
enforcement and detention administrators across the United States are 
greatly concerned that they do not have the proper tools, training, and 
information at their disposal to ensure that offenders with mental 
impairments are dealt with in a safe and suitable manner, which would 
provide positive outcomes for everyone involved in these situations.
    The bottom line is that we need to hold those who intentionally 
violate the law accountable, and help those whose condition makes them 
incapable of intentionally violating the law.
    In conclusion, I want to thank you for your commitment to this 
issue. There are millions of families impacted by the lack of 
appropriate facilities for men and women with mental health 
impairments. Too often an individual with mental health impairments 
becomes the responsibility of the criminal justice system because it is 
easier and safer to have them behind bars rather than in society. With 
your help we can work together to create state and national guidelines 
that will divert these individuals to more appropriate facilities.

    Mr. Scott. Thank you.
    Mr. Wall?

             LIEUTENANT RICHARD WALL, LOS ANGELES 
               POLICE DEPARTMENT, LOS ANGELES, CA

    Mr. Wall. Thank you, Mr. Chairman.
    Distinguished Members, a man I will call Mike lives in 
south Los Angeles. He is a 31-year-old African-American male 
with his first documented contact with the Los Angeles Police 
Department was January 21, 1993, when, at the age of 17, he 
attempted to take his life to stop the voices in his head.
    Over the next 12 years, he was placed on a number of mental 
health holds, as his delusions became more severe, his actions 
more desperate. During the 17-month period between July of 2004 
and November of 2005, Mike was repeatedly refusing to take his 
medications and fell into a pattern. On the 15th, 16th, 17th of 
every month, he would begin acting out; on the 18th, 19th and 
20th, he would become violent; on the 21st, 22nd and 23rd, he 
would attempt suicide by cop.
    During this 17-month period, his actions generated 48 calls 
for police services, resulting in 22 mental health holds. On 
the three occasions he attempted suicide by cop, I asked him, I 
talked to him about it, I said, ``Why did you want to kill 
yourself? Why did you want the police to kill you?'' And his 
response is very simple: ``To stop the voices in my head.''
    While Mike's story is remarkable, unfortunately it is 
repeated in cities and towns across this Nation on an hourly 
basis, if not more frequently.
    Laws identifying who can place a patient on a mental health 
hold vary, but one option is available to everyone. At 3 a.m., 
when there is a mental health crisis call, there is one agency 
that will respond, and that is law enforcement. You dial 911 
and you will get police officers who will use the best training 
that they have to get this patient to the appropriate mental 
health facility.
    An interesting thing to note, in 2004, I conducted a review 
of Los Angeles Police Department calls for service involving 
the mentally ill. Ninety-two percent of those calls came from 
family members and caregivers. This is contrary to the 
stereotype of the almost mentally ill person who assaults 
somebody walking down the street. While that does happen on 
occasion, it is more frequently that the victim of the assault 
is a family member and then the police are called to respond.
    There are three basic models to respond for law 
enforcement: One is the CIT Program, which we have talked 
about; the second is a co-response model, which partners the 
Department of Mental Health clinician or specialist with a 
police officer, and the last is one that is handled by most 
county departments of mental health.
    In Los Angeles, we have a combination where we have all 
three. We have CIT, we have a co-response model, and we have a 
very active county department of mental health who has its 
psychiatric mobile response teams, or PMRTs.
    We respond to a number of crisis calls. They include 
suicide in progresses, barricaded suspect scenarios, and I will 
point out that on barricaded suspect scenarios in Los Angeles, 
37 percent of those calls, over one-third, resulted in no 
criminal charges being filed. The subject was placed on a 
mental health hold.
    We also respond, unfortunately, to a number of calls within 
the Los Angeles County school district, within the Los Angeles 
Unified School District, in which case twice a week our teams 
are responding to crisis calls involving children under the age 
of 10 who are actively attempting suicide. Think about that for 
a second: Children under the age of 10, twice a week, in Los 
Angeles, are attempting suicide, and we are responding to those 
calls.
    This is clearly an issue that has been forced on law 
enforcement, and, in essence, law enforcement has become the de 
facto mental health triage system for the Nation.
    The important thing here is to remember that our goal is to 
provide training for these officers. The goal of training is to 
reduce violent encounters of the mentally ill, that is it. And 
we need your support through the Bureau of Justice grants and 
other funding to help fund this type of training.
    Again, we have a very unique situation within the city and 
county of Los Angeles, within the city, specifically. We have a 
program that is unrivaled anywhere, and it is truly as a result 
of the leadership at the top. This can't be done without the 
buy-in at the top of the ladder.
    Dr. Marvin Southard, the director of the Department of 
Mental Health for the County of Los Angeles, and Chief William 
Bratton, the chief of police of Los Angeles, have committed to 
expand these programs and work on these programs.
    In 2003, we had 13 officers assigned to my unit. Today, we 
have about 45 officers and 25 clinicians, for a total of 70 
people, and our next budget for next fiscal year has even more 
of an increase. The old saying that actions speak louder than 
words, well, I have to say that the actions of Chief Bratton 
and Dr. Southard are truly deafening.
    Our motto in my office is very simple, and I truly believe 
in this, our motto is, ``Every day you go to work you save a 
life.'' And I truly believe that. We have encountered people in 
severe crisis who are at high risk for suicide, high risk for 
death at the hands of another, high risk for suicide by cop.
    And every time we respond to a call, it is not the sexy 
stuff of running into the burning building and rescuing the 
children, but every time we encounter a 90-year-old woman who 
can't meet the basic needs for food, shelter and clothing as a 
result of her mental illness, she will die in that situation if 
it wasn't for the officers' actions that we take every day.
    And, again, we appreciate your continued support in this 
area. Thank you.
    [The prepared statement of Mr. Wall follows:]
                   Prepared Statement of Richard Wall
    Overview
    A man I will call ``Mike'' lives in South Los Angeles. He is a 31 
year old, African American male, who suffers from mental illness. He 
suffers from schizophrenia, depression, and bi-polar disorder. His 
first documented contact with the Los Angeles Police Department was on 
January 21, 1993, when at the age of 17, he attempted to commit suicide 
to stop the voices in his head. Over the next 12 years, he was placed 
on a number of mental health holds as his delusions became more severe 
and his actions became more desperate. During the 17-month period 
between July 2004 to November 2005, ``Mike'' was repeatedly refusing to 
take his medications and fell into a pattern of suicidal behavior. The 
pattern being:

        <bullet>  On the 15, 16, 17th of the month, he would begin 
        acting out;

        <bullet>  On the 18th, 19th, and 20th, he became violent, 
        assaulting either a neighbor or family member; and

        <bullet>  On the 21st, 22nd, and 23rd he would become suicidal.

    During this 17-month period, his actions generated 48 calls for 
police services resulting in 22 mental health holds. On three occasions 
he attempted to commit Suicide by Cop (SbC) and was the subject of a 
Barricaded Suspect scenario necessitating a response by the SWAT team 
and an evacuation of the surrounding neighborhood, displacing 
approximately 50 residents. On the occasions that he tried SbC, he 
called the police, advised them that he had a gun and would ``kill the 
police.'' When the police responded, he would place an object inside 
his jacket and feign drawing a weapon, hoping to draw police gunfire. 
When I asked him why he wanted to have the police kill him, he replied, 
``To stop the voices in my head.''
    While ``Mike's'' story is remarkable, unfortunately it is repeated 
in cities and towns throughout this nation on a daily, if not hourly 
basis. Clients suffering from serious mental illnesses that either 
refuse or have no access to treatment, or their treatment is 
ineffective, generate calls for service for their mental health crises. 
Laws identifying who can place a client suffering from severe mental 
illness on a mental health hold vary from state to state; however, one 
option is consistent throughout the nation. At 3:00 AM, when a client 
is suffering from a serious episode of mental illness, there is one 
place that family members and caregivers can call to help. That number 
is 911. And in every jurisdiction in the nation, law enforcement 
officers will respond to help get the client to the appropriate mental 
health facility. In fact, in some jurisdictions, like those in Los 
Angeles County, a doctor with 30 years experience in a medical 
emergency room or a paramedic with 20 years of experience cannot, by 
law, place a suicidal client on a mental health hold. However, a police 
officer, the day he or she graduates from the police academy can. As a 
result, the onus of evaluating and obtaining appropriate mental health 
treatment falls to law enforcement who have become have become the de 
facto mental health triage service providers.
    In 2004, I conducted a review of calls that were identified as 
involving an episode of mental illness in the City of Los Angeles 
during the previous year. That review revealed that 92 percent of the 
calls for service that involved persons suffering from mental illness, 
the reporting person was either a family member or a caregiver. 
Contrary to the stereotypical image of the mentally ill being homeless 
and assaulting innocent passersby, the reality is that many times the 
victims of assaults by the mentally ill are actually their family 
members; the ones who care for them on a daily basis with love and 
understanding. Unfortunately, when these clients begin to act 
violently, these family members call the police.
    There are three basic models for law enforcement responders 
handling calls for service involving the mentally ill. These are the 
Crisis Intervention Team (CIT) model where specially trained officers 
respond to the calls; the co-response models that partner a law 
enforcement officer and mental health professional; and the mental 
health model that sends mental health professionals to address the 
needs of the client after the client has been taken into custody. These 
models are deployed throughout the nation in many jurisdictions. Of 
these models, there is no ``best'' model. Smaller jurisdictions may not 
have the resources to deploy CIT personnel or field co-response units. 
Others will use the model that best fits their needs. For example, 
Memphis, Tennessee has an outstanding CIT program that few can rival; 
San Diego, California, utilizes co-response Psychiatric Emergency 
Response Teams (PERT Teams) as this model works best for them.
                  programs in the city of los angeles
    In Los Angeles, California, the Los Angeles Police Department has a 
truly unique program. The Los Angeles Police Department utilizes an 
approach that involves each of these programs and more. I oversee the 
Department's Crisis Response Support Section that currently has 45 
officers and detectives from the Los Angeles Police Department and 25 
doctors, nurses, and clinical social workers assigned to the Los 
Angeles Department of Mental Health.
    The first link in this process is the Mental Evaluation Unit's 
Triage Desk. These are specially trained officers who handle inquiries 
from patrol and dispatch personnel to help to identify incidents 
involving the mentally ill and provide information, direction, and 
advice to the field personnel. The Mental Evaluation Unit maintains a 
database of all law enforcement contacts in the City of Los Angeles. 
This confidential database provides our personnel in the field with 
information regarding prior law enforcement contacts to assist them in 
addressing the needs of the client in the field. Those cases that 
require additional follow-up in the field are referred to our SMART 
teams.
    In partnership with the Los Angeles County Department of Mental 
Health, Los Angeles Police Department currently has 18 Systemwide 
Mental Assessment Response Teams (SMART Teams) that provide citywide 
coverage. These teams respond to mental health crisis calls that 
include but are not limited to:

        <bullet>  Suicide in progress calls (jumpers, overdoses, etc),

        <bullet>  Barricaded suspect scenarios, hostage situations, and 
        other situations that involve the Crisis Negotiation Team,

        <bullet>  Crisis Response calls such as major disasters 
        (MetroLink Train crash in January 2005) or incidents involving 
        children (e.g. One situation where an individual committed an 
        act of murder/suicide that was witnessed by several of the 
        victim's children), and

        <bullet>  Crisis Response calls to Los Angeles Unified School 
        District involving suicidal children (SMART personnel respond 
        to an average of two calls each week involving suicide attempts 
        by children under the age of ten.).

    A recent addition to the SMART teams is the Homeless Outreach/
Mental Evaluation (HOME) Teams operating in the ``Skid Row'' area of 
downtown Los Angeles. These teams, made up of a police officer and a 
registered nurse or licensed social worker, work to assist patrol 
officers who encounter those clients who are also homeless. This 
program has been extremely successful in providing linkage with mental 
health services and working to reduce the victimization of the homeless 
mentally ill.
    Additionally, the Los Angeles Police Department holds quarterly CIT 
training courses and currently has 307 CIT certified officers assigned 
to field operations. These officers are deployed throughout the City's 
19 Geographic Divisions and serve as first responders to mental health 
crisis calls.
    The Los Angeles Department of Mental Health also maintains 
Psychiatric Mobile Response Teams (PMRT Teams) that are deployed 
throughout the City of Los Angeles to provide early intervention and 
assessments prior to the client generating an emergency call. Family 
members and/or the client's assigned doctor notify these teams of 
potential problems.
    However, one of the most innovative programs in Los Angeles is the 
Case Assessment and Management Program (CAMP). The goal of the CAMP 
investigator is to identify those clients who:

        <bullet>  As a result of their mental illness, are at high risk 
        for death by their hands (suicide) or the hands of another 
        (Suicide by Cop); or at high risk to injure another,

        <bullet>  As a result of their mental illness, are the subject 
        of repeated criminal investigations where the nature of the 
        crime is directly related to the client's mental illness, and

        <bullet>  As a result of their mental illness, generate a high 
        number of calls for service that involve emergency services 
        (police, fire, and paramedics).

    Cases that are assigned to CAMP are managed by the Los Angeles 
Department of Mental Health staff and the focus is to get those clients 
who, as a result of their mental illnesses, commit minor offenses into 
the mental health system where they can receive appropriate treatment, 
thus keeping them out of the criminal justice system. To date, CAMP has 
been extremely effective in this endeavor
    The biggest problem facing these programs in Los Angeles County is 
that there is no effective Mental Health Court or court diversion 
process. Instead, the CAMP detectives must work with the prosecutors 
and public defenders on a case by case basis to achieve, what we 
believe to be, positive outcomes involving placement and treatment 
options. This requires our detectives to travel to different courts 
throughout the County of Los Angeles and spend time educating the 
respective prosecutors, defense attorneys, and judges on available 
options. I will let Judge Leifman's testimony address the importance of 
your support of Mental Health Courts in further detail.
    Our CAMP investigators provide regular follow-ups on the subjects 
of barricaded suspect scenarios. In 2006, 37 percent of all barricaded 
suspect scenarios resulted in the client being placed on a mental 
health hold with no criminal charges being filed. These were clients, 
who were, in most cases, suicidal and armed with weapons, including 
firearms. In each case, after the client has surrendered, CAMP 
personnel accompany the client to the hospital and complete the mental 
health holds. Then, our partners from the Los Angeles Department of 
Mental Health work with the client and his/her family to obtain 
treatment and conduct regular follow-ups to ensure that we don't have a 
repeat occurrence. To date, we have not had any repeat incidents with a 
client in which CAMP was involved in a subsequent violent incident.
    During 2006, our CAMP has successfully placed seven clients on 
conservatorships; seven clients are in locked psychiatric facilities; 
two are in State prison, and four homeless mentally ill clients were 
reunited with their families and linked to services in their home 
counties. It is important to note that while we work very closely with 
our partners at Los Angeles Department of Mental Health, we maintain 
separate databases. Our criminal databases are protected and the 
information is confidential. Similarly, the databases maintained by Los 
Angeles Department of Mental Health are also confidential. While 
limited information can be shared between partners working on a case, 
that information is kept confidential. For example, as the officer-in-
charge, I know the names of some of the clients that we have criminal 
cases pending on but I don't know their diagnoses.
    As I mentioned earlier, police officers and the criminal justice 
system have become the de facto mental health triage service providers. 
The largest ``treatment facility'' west of the Mississippi River is the 
Twin Towers jail facility maintained by the Los Angeles County Sheriff. 
That facility has approximately 1,000 beds for mentally ill clients, 
all of which are full. I won't elaborate on the needs of the county 
jails in this area as Sheriff Gutierrez is better equipped to address 
this issue. However, one issue remains constant. That issue is the need 
for adequate training to provide law enforcement personnel with the 
best and most appropriate training available.
    The goal in training law enforcement in handling calls for service 
that involve the mentally ill is to reduce violent encounters with this 
population. That being said, I must add the following caveat: Despite 
the level of training that law enforcement personnel have, there will 
always be those situations where the client's mental illness is so 
severe and their state is so deteriorated, that they will engage 
officers in violent confrontations. Unfortunately, there will always be 
those situations where the client's condition is so severe and they 
have a weapon, that officers will be forced to use deadly force. There 
is no ``magic wand'' that can assure that once an officer is trained, 
they will never have a violent encounter with a mentally ill client.
    This is evidenced by the fact that, as I mentioned earlier, the 
client's family members and caregivers generate over 90 percent of 
calls for service. In most cases, these are people who know and love 
the client and have many years of history with him or her. These are 
people who know the client's moods and behaviors intimately, as in many 
cases, they have been living with the mental illness for many years. 
However, many times, the family is forced to call the police because 
the client has assaulted a family member. Why then, should we place an 
expectation on an officer that because he/she has taken a 40-hour 
course on Crisis Intervention Techniques, that he/she will never be 
forced into a violent confrontation with a client? I would also cite 
the fact that each year, doctors and nurses who work in our nation's 
mental health hospitals are violently assaulted by clients with whom 
they have daily contact and interactions. They recognize that the 
client's mental illness is the precipitating factor in the aggressive 
actions and their actions, like those of law enforcement officers, are 
in response to those actions.
    It is clear, however, that by providing training to law enforcement 
personnel on how to recognize and respond to clients who are suffering 
from mental illnesses, that violent encounters can be reduced. It is 
important to identify and fund relevant training in this area. Within 
the Los Angeles Police Department, we have worked to accomplish this. 
For example, in the 40-hour CIT course, there is an 8-hour segment on 
``Psycho-pharmacology.'' The reality was that most officers, who don't 
work in the mental health field, could not recall all of the drugs or 
their use, two weeks after they completed the course. We realized that 
it was important to provide training that field personnel can use to 
identify clients who are experiencing episodes of mental illness and 
adjust their approach accordingly.
    One of the more innovative training modes that the Los Angeles 
Police Department has developed is the CIT e-learning course. We have 
taken our 24-hour course and have broken it down into 12 two-hour 
blocks. As we develop each block of instruction, they are placed on our 
Department Web. We have found that this delivery system is an effective 
means to provide this program to all Department employees and is 
extremely cost effective. Traditionally, when courses are offered, 
police departments must send officers to a central location for 
training and, in many cases, backfill their positions in order to 
ensure that the public safety needs of their respective communities are 
met.
    By utilizing the e-learning modules, field personnel can break the 
class into digestible segments and take the courses during their 
regular shifts at their respective stations, while remaining available 
to respond to emergencies. The effectiveness of this program is truly 
impressive. 9,100 Department personnel have completed the Los Angeles 
Police Department's first four-hour block of instruction. A two-hour 
segment titled, ``Introduction to Mental Illness'' was completed by 
6,727 field and investigative personnel over a four-month period. The 
next course titled ``Mood Disorders'' is in the final review and will 
be released next month.
    The goal of the Los Angeles Police Department is to present all 24 
hours of e-learning instruction on mental illness to all field 
personnel, thus raising the basic level of understanding of mental 
illness to all employees who are likely to encounter clients who are in 
crisis. Those personnel who wish to become CIT certified can then take 
an additional 16 hours of interactive instruction and role-playing 
exercises to improve their expertise. Currently, there are over 400 
patrol officers who have expressed an interest in becoming CIT 
certified.
    By all accounts, the programs implemented by the Los Angeles Police 
Department have been extremely successful. As the program manager, I 
can truly say that in my 26 years as a Los Angeles Police Department 
officer, this has been my most rewarding assignment. However, we could 
not be as effective as we have been without our partners at the Los 
Angeles Department of Mental Health. As I have looked at programs 
across the nation, I have noted one particular trend. Law enforcement 
and the mental health system, whether state, county, or municipal, 
private or public, have the same objective. That is to get the client 
into an appropriate setting where he/she can receive the proper help. 
However, I have also noted that these entities are heading toward the 
same destination, with the same objectives, but are on separate tracks. 
As a result, there is a disconnect between these entities, allowing 
clients to fall through the cracks.
    The partnership between Los Angeles Police Department Los Angeles 
and the Department of Mental Health is truly unique. In our office, a 
supervisor from the Los Angeles Department of Mental Health occupies 
the desk across from mine. We are a true partnership and have equal 
standing in common decisions. Our facility is not in a police station, 
but an office building in downtown Los Angeles. Our SMART teams drive 
unmarked police cars with emergency equipment (lights and sirens). Our 
officers are in plain clothes, which we have found reduces the anxiety 
of the clients we serve. No where in the nation have I found such a 
positive relationship between a county and municipal agency.
    The reason for the effectiveness of this relationship rests at the 
top of our organizations. Chief William Bratton and Dr. Marvin Southard 
have provided absolute support for this program from the beginning. In 
2003, we had six SMART teams comprised of 13 Los Angeles Police 
Department personnel and nine Los Angeles Department of Mental Health 
personnel. Today, we have 70 total personnel. Both the Los Angeles 
Police Department and the Los Angeles Department of Mental Health have 
submitted budgets for the new fiscal year that will increase the unit 
even more. The old saying that ``Actions speak louder than words'' 
holds true. And the actions of Chief Bratton and Dr. Southard are 
deafening.
    You may recall that I opened this testimony with the story of 
``Mike,'' the client who was placed on 22 mental health holds in a 17-
month period. Well, ``Mike'' was our first client that was placed in 
our CAMP Program. In 2006, due to the intensive efforts of our 
personnel, ``Mike'' generated one call for service. He has been 
successfully linked with services and while our CAMP personnel have 
monthly contact with him and his family. He has not been the subject of 
a radio call in over a year.
    We have a motto in our office. It is a motto that I truly believe 
in. Our motto is ``Every day you save a life.'' Each time we respond to 
a call for service, it involves a client that is suicidal, a danger to 
others, or cannot meet their basic needs for food, shelter, or 
clothing. Your continued support of these programs is essential. The 
grants funded by the Bureau of Justice Administration and future 
funding initiatives are critical to helping us save lives. Thank you.

    Mr. Scott. Mr. Evans?

         TESTIMONY OF LEON EVANS, EXECUTIVE DIRECTOR, 
            JAIL DIVERSION PROGRAM, SAN ANTONIO, TX

    Mr. Evans. Mr. Chairman and all the Members, I am Leon 
Evans from the Center for Health Care Services in Bexar County, 
Texas, that is San Antonio. I am also the chairman-elect of the 
National Association of County Behavior Health Care Directors, 
an affiliate of the National Association of Counties.
    The National Association of Counties has a committee that 
mirrors your Committee, the Justice and Public Safety Steering 
Committee, and that committee has passed a resolution asking 
this body and Attorney General Gonzales to look into the 
criminalization of the mentally ill by creating some kind of 
oversight committee.
    I have some slides I would like to put up, and the second 
slide shows our community partnerships, our collaboration. Now, 
we have had visitors just 2 weeks ago from Canada, the Ministry 
of Health in Ontario province in Canada, we have had people 
visit our program from all over the United States. And the 
thing they marvel at, just like most of the things you have 
heard today, is the community collaboration, the partnership. 
They can't get over how the sheriff, the police chief, the 
judges, everybody involved have come together to work out these 
problems.
    Now, we all know that we are so underfunded, and there is a 
natural aversion for law enforcement and mental health to work 
together in the first place. So who is going to make us do it? 
We need to get community leadership at the Federal, State and 
local level to come together and develop strategies to overcome 
these barriers. We need to integrate our Federal, State and 
local funding because there is not enough.
    Now, we have conducted a cost-benefit analysis, we had Dr. 
Michael Johnsrud, a medical economist at the University of 
Texas, to do an initial one when we first started. We showed 
the first year a $3.8 million to $5 million savings in our 
efforts.
    Now, even though we have, like, 46 points where we 
identified people with severe mental illness who were 
inappropriately incarcerated into the criminal justice system, 
we focused on the fact that if you have a mental illness, you 
shouldn't go to jail in the first place.
    So we have a collaboration--if you will go a couple 
slides--the next slide just kind of shows the entry points. The 
next slide shows the number of people that are being screened.
    Historically, law enforcement officers did not know how to 
access mental health services. Let me share a story. When we 
did our first Crisis Intervention Training (CIT), I was 
visiting with an officer and he was telling how bad he felt 
when he picked up a person who was delusional. And the example 
he gave me was he got called to McDonald's because this guy was 
saying the Lord's prayer and upsetting everybody in the 
restaurant, and he was saying the Lord's prayer because he was 
having hallucinations, auditory hallucinations, and he would 
say the Lord's prayer to drive these voices out of his head.
    And the law enforcement officer said, ``I didn't know about 
you guys. I didn't know about the mental health system. I just 
knew I couldn't leave this guy in McDonald's. I didn't know 
what to do with him.'' I said, ``Well, what do you usually do 
with a person like that?'' He said, ``I take them to the 
emergency room, if I am close to the ER, or I take them to 
jail.''
    And so what we have done is we have a collaboration now 
where we do minor medical clearance and psychiatric evaluations 
in a central place. We are diverting people from emergency 
rooms who used to average 8 to 14 hours in an emergency room 
waiting for a minor medical clearance or psychiatric 
evaluation. So you are shackled to a law enforcement office, 
you are not having a heart attack, you weren't in a car wreck, 
so you get triaged to the back of the line.
    Our Police Chief Albert Ortiz, before we implemented this 
program, was spending $600,000 a year in overtime pay, plus 
taking law enforcement officers off the street 8 to 14 hours. 
Now, with this new crisis center, he can get a medical 
clearance and psychiatric evaluation in 45 minutes. And he is 
putting $100,000 of his drug asset and seizure money--that is 
what most police chiefs buy body armor and weapons with--into 
this mental health program, because it makes so much sense.
    Diversion from our county jail, if you haven't committed a 
major crime, you are brought to us. Law enforcement officers 
basically drop them off. We are the mental health authority, we 
do the disposition. We have all kinds of step-downs. About 20 
percent of the people need to be hospitalized.
    Other people need observation, short-term crisis services, 
some people might be urinating in public, sleeping on 
doorsteps, digging in trash cans or dumpsters. They are brought 
to us, evaluated by psychiatrists, and not to be found 
blatantly psychotic or a danger to themselves or others and 
refusing treatment. So we contract with a shelter. In a lot of 
these cases, people had been in a shelter before. So we have, 
kind of, a mental health unit in this public shelter and we try 
to endear ourselves and get people into treatment.
    So that is just one venue that we have.
    And I want to make another point real quick, because my 
time is about out. The Texas Department of Criminal Justice 
started identifying all these non-violent, mentally ill people 
in the prison system. So they developed this Texas Correctional 
Office on Offenders of Medical and Mental Illness Impairments, 
and they put them on parole and they contract with my 
organization.
    And a condition of their parole is they see the 
psychiatrist, take their medication, do their alcohol or drug 
screening, as so ordered, and generally be in compliance with 
their mental health treatment. Do you know what our revocation 
rate is? It is less than 3 percent.
    And, Sheriff Gutierrez, I think statewide it is less than 5 
percent, right?
    And that just goes to show you if these people had been 
treated in the first place, they wouldn't have gotten involved 
with the criminal justice system. It was their mental illness 
and those strange behaviors associated with mental illness that 
brought them in contact with law enforcement.
    So I appreciate this Committee's leadership and interest in 
this. It is a huge subject. It is very costly to society, and 
it is devastating to the individuals who get jailed because of 
their mental illness. We don't put people in jail that have 
heart disease or diabetes, and people with major mental illness 
shouldn't have to go there either.
    Thank you so much. You are very kind.
    [The prepared statement of Mr. Evans follows:]
                    Prepared Statement of Leon Evans
    Honorable Chairman and Members of the Subcommittee of the House 
Judiciary Committee:
    My name is Leon Evans, President/Chief Executive Officer of The 
Center for Health Care Services (Center), a state community mental 
health center which is the Mental Health Authority for Bexar County/
City of San Antonio Texas.
    I am Chairman-elect of the National Association of County 
Behavioral Healthcare and Developmental Disabilities Directors. The 
organizational mission of this association is to provide county based 
mental health and substance abuse services across 22 States.
    I am also a proud member of the National Council for Community 
Behavioral Healthcare with a membership of 1,300 mental health centers 
providing services across our nation.
    Additionally, I am a member of the Justice Committee of the 
National Association of Counties (NACO) that has been active through 
their membership representing 2,075 member counties and their county 
judges, commissioners, sheriffs and county jail administrators, in 
advocating for a new system of response to alleviate the inappropriate 
incarceration of persons with mental illness and the cost associated 
with it.
    It is an honor to come before this subcommittee on Crime, 
Terrorism, and Homeland Security of the Committee for the Judiciary of 
the U.S. House of Representatives regarding ``Criminal Justice 
Responses to Offenders with Mental Illness.''
    It is an honor to come before you to tell you about our community 
collaboration in Bexar County. This collaboration created a very 
successful community initiative known as ``The Bexar County Jail 
Diversion Program.'' In the last two years, our collaboration has been 
nationally recognized for its excellence in service, focusing on first 
line contact within the jail diversion continuum.
    In 2006, The American Psychiatric Association recognized the Bexar 
County Jail Diversion Collaborative with its national ``Gold Award'' 
for the development of an innovative system of jail diversion involving 
community partnerships and collaborations. This award recognized the 
collaborative innovation of improved services, enhanced access to and 
continuity of care for persons with mental illness, which resulted in 
financial savings to the community.
    The Bexar County Jail Diversion Program (BCJDP) was also the 
recipient of the 2006 ``Excellence in Service Delivery Award'' provided 
by the National Council for Community Behavioral Healthcare.
    The Bexar County Jail Diversion Model has been highlighted in the 
Substance Abuse and Mental Health Services Administration (SAMHSA) 
journal for its innovations and creativity. Visitors from all over the 
United States, including Canada, have come to study this model program 
in the hope of developing similar models in their communities.
    We are in the process of completing our second cost benefit 
analysis that identifies the costs associated with mentally ill non-
violent offenders and the use of public resources such as hospital 
emergency rooms, jails and prisons. Without proper identification and 
access to service and treatment, many of these individuals are caught 
in a never ending revolving door resulting in harm to the individual 
and the draining of public dollars.
    In Fiscal Year 2004, our first economic study reviled that in Bexar 
County, with the diversion of over 1,700 people an estimated $3.8 
million to $5.0 million dollars in avoided costs was actualized within 
the Bexar County Criminal Justice System.
    Economically, it makes sense to divert from incarceration and treat 
non-violent persons with serious mental illness in different venues and 
make available crisis services and other treatment modalities outside 
the criminal justice system. This protects the dignity of persons with 
a severe mental illness while making sure our county, state and federal 
dollars are spent in the most effective and efficient way possible. By 
not providing the appropriate intervention and treatment we are finding 
that people with mental illness are being incarcerated. This in-
appropriate system of incarceration could be considered cruel and 
unusual punishment.

The Problem:

    It is a national tragedy that in today's society, persons with 
severe mental illnesses, for who the most part are not violent, find 
themselves caught up in the criminal justice system. Many persons with 
mental illness are over represented in in-appropriate settings such as 
emergency rooms, jails and prisons. For sometime, it was thought that 
about 16% of persons in our jails and prisons had a severe mental 
illness. More recent studies would suggest that the number could be at 
least twice as high. This is not only wasteful and inappropriate but 
delegates' people with an illness to be housed in our jails and prisons 
rather than treated in the least restrictive most appropriate 
therapeutic setting.
    The reason for this problem is multi faceted. First, in the 60's 
when psychotropic medicines were being developed and President Kennedy, 
through the Community Mental Health and Mental Retardation Facilities 
Act of 1963, initiated the delivery of community based services, states 
started closing our state hospitals. It was understood that necessary 
funding would follow these persons back to the community to pay for the 
treatment and medication. In reality, that did not happen. Today, we 
find ourselves not only ``under-funded,'' but the funding that has been 
dedicated to serve persons with mental illness in the community tends 
to be directed towards outpatient services instead of necessary funding 
for intensive crisis services. There is little or no services 
associated with stabilizing persons and re-integrating them into their 
communities.
    Historically, law enforcement and Community Mental Health 
Authorities have not partnered nor communicated with each other to 
address these problems! Due to the lack of this poor communication and 
trust, to date there has been little training, little planning, and 
therefore poor to limited services. This break-down in communication 
results in duplicated efforts, inefficiencies and limits the impact of 
our tax dollars being spent in our communities. It is well known that 
the average length of stay for these non-violent offenders who end up 
in our jails is 3 to 4 times longer at 5 to 6 times the cost of their 
stay as compared to the cost of the stay of a violent offender.
    Why is this?

        1)  These persons lack the resources to advocate for themselves 
        or have the knowledge or ability to access commercial or 
        specialty bonds for release.

        2)  The nature of mental illness and the lack of public 
        information force a judge to act conservatively in their 
        decision process which extends their stay.

    During their stay in the jails, most persons with mental illness 
usually receive poor treatment for their mental illness. After all, 
jail and prisons are not therapeutic environments. Many times people 
that end up in jail do not get referred to mental health services on 
discharge. Therefore, these individuals end up de-compensating and 
ultimately end up back in jail and in our state prisons. Inappropriate 
sentences in state prisons create episode costs that could range in 
hundreds of thousands of dollars per incarcerations.
    We have a failed public policy when it comes to the incarceration 
of non-violent mentally ill offenders. This does not make sense when it 
comes to public policy. A non-violent offender taking up space 
increases overcrowding and reduces bed availability for those 
individuals who do need confinement.
    History has shown us that the current system has caused the 
suffering, indignity and humiliation for thousands of persons with 
serious mental illness who have been inappropriately jailed due to the 
lack of availability of treatment and crisis services within the 
community. Tax payers, in the end, are paying the price for this failed 
system.
    Our County Judge Nelson Wolff brought together a group of community 
leaders who formed a collaborative, which has been functioning for 
several years focused on improved services and driving out waste 
associated with the criminalization of the mentally ill.
    The BCJDP has been designed and developed, through this expansive 
collaborative effort of community leaders and stakeholders, to 
ameliorate the practice of utilizing the jail system for the 
inappropriate ``warehousing'' of individuals with substantial mental 
health issues. The thrust of this effort was to also minimize the use 
of the arrest/booking process of adult offenders with mental illness 
who by their conduct, are subject to being charged with a minor non-
violent criminal offense.
    Within four years, from 2003 to date, we have developed a new model 
of diversion, which focuses on both physical and mental disabilities 
working closely with law enforcement within forty-six intervention 
points along a jail diversion continuum. Our new Crisis Care Center has 
compressed the waiting time required of law enforcement officers to 
deliver an individual in crisis for psychiatric assessments and medical 
screenings. This compression of time has allowed law enforcement 
officers to be released back into the community within a 15 minute time 
frame and more appropriately provide service to the community and 
results in less inappropriate incarcerations and/or inappropriate use 
of our emergency rooms. It is estimated that in the first year alone, 
$3.8 to $5 million dollars was saved in the community through our 
diversion efforts resulting in the reduction of over crowding of the 
jail and increasing the capacity in our jails for the incarceration of 
violent offenders. It should also be noted that our emergency rooms are 
not packed with law enforcement officers waiting for medical clearance 
and psychiatric evaluations and keeping them from performing the law 
enforcement functions in the community. This has resulted in avoiding 
associated overtime costs for those officers who have to wait with the 
apprehended person needing medical clearance and psychiatric 
evaluations. We have implemented a number of innovative programs which 
work closely with the court system, the probation system, and local 
judiciary at large. We have incorporated probate judges in the 
development of civil commitment actions which ensure intensive 
outpatient case management for high utilizers resulting in significant 
savings as a result of a shortened State hospital stays.

Future:

    Engaged efforts are currently in place to reach out to all 
community stakeholders such that local law enforcement, emergency 
medical services, hospital districts, the judicial system, local 
treatment agencies and others gain knowledge of working with persons 
suffering serious mental illness and the provision of cost effective, 
least restrictive, clinically effective treatment options within a 
community collaborative framework.

Conclusion:

    We don't put people with diabetes and heart attacks in jails so why 
do we allow this to happen to our sons and daughters, to our family 
members who have a serious mental illness. We must treat the illness 
and not the symptom. We need to improve the quality of life by 
providing them with more appropriate venues of treatment. The mentally 
ill do not belong in the emergency rooms and jails for minor criminal 
offenses committed as a result of their mental illness. The emergency 
rooms are needed for more serious injuries for those that need the 
appropriate use of the emergency room. The jails are overcrowded and 
the mentally ill do not belong there.
    Bringing them to an appropriate Crisis Center with an appropriate 
treatment program can alleviate the crowded situation faced at hospital 
emergency rooms as well as jails. We need to train law enforcement to 
become knowledgeable and have an awareness of the need to bring those 
individuals to us as opposed to jails.
    There is a failure in the public mental health system. A Crisis 
Center, working with judges, and providing services to the mentally ill 
with additional supports can be a solution to the communities needs. We 
have many challenges before us but I am pleased to offer an alternative 
which focuses on community ownership and community collaboration.
    Documents for the record include the following attachments:

 1. APA Gold Award
 2. Jail Diversion Short Presentation
 3. National Weekly ``Bexar County Story''
 4. CCC Dr. Hnatow Article
 5. Hollywood CIT Final Version
 6. JD Model Lite
 7. Written Testimony March 23, 2007
 8. SAMHSA Newsletter
 9. 3 JOHNSRUD FINAL
10. BCJD Economic Impact Study
11. CCC Brochure
12. Hnatow UHS
13. Jail Diversion White Paper
14. Out of Jail and Into Treatment

    Mr. Scott. Thank you. Thank you, Mr. Evans.
    And I thank all of our witnesses for their testimony.
    We will now have questions from the Members under the 5-
minute rule, and I recognize myself for the first 5 minutes.
    Mr. Evans, you indicated you had a cost-benefit analysis?
    Mr. Evans. Yes, sir. And it is part of your record, and we 
just contracted in a partnership with the Texas Department of 
Medicaid. They have a drug vendor program, and drug companies 
give the State either a reduction in drug costs or, if the drug 
company's Medicaid division will allow it, can reinvest in the 
community program.
    So part of how we got this done was a partnership with 
AstraZeneca and the State Medicaid Program. Part of that 
initiative was to do an extensive cost-benefit analysis. The 
one that you have copies of just show the cost savings in jail. 
In reality, there should be savings in the prison system, in 
the hospital system. If people don't get identified and treated 
as they come out of jail, and some people will be jailed 
because of their offense, there will be that revolving door, 
that recidivism rate. So all these costs are associated with 
people not getting treated.
    And the new cost-benefit analysis done by the Research 
Triangle in North Carolina should be finished in June or July, 
and we will have all those associated costs, and also 
inappropriate hospitalizations.
    Mr. Scott. Judge--is it ``Leifman?''
    Judge Leifman. Yes, sir.
    Mr. Scott. Judge Leifman, are there constitutional 
standards that we have to achieve to avoid constitutional 
violations?
    Judge Leifman. There are constitutional standards, but I 
think what has happened is the local jails have become so 
overcrowded and overwhelmed with the issue they just don't know 
what to do with the population. We tried to make sure that 
those constitutional protections are in place, but I think 
everyone is so overwhelmed with this issue that they are trying 
desperately to figure out a way to divert people from coming in 
or once they do come in to divert them out of our systems.
    Mr. Scott. The situation in the jail in your county, do you 
think you had crossed the line into a constitutional violation? 
If somebody filed suit, would we have been in jeopardy?
    Judge Leifman. Most likely. But it is ironic because they 
had been under Federal court orders before. It just doesn't 
work. And what I think works is when the community comes 
together to avoid that lawsuit, and you end up spending so much 
money on a Federal lawsuit to defend it that you waste what you 
need to do to fix it.
    We did a study. We took 31 people who were the highest 
utilizers in our jail who had serious mental illness. It cost 
us $540,000 to do nothing, because that is what it costs to 
keep them in jail when they have mental illness or get them 
acute care. If you do nothing, you end up spending the money. 
It is much cheaper and much more efficient to keep them from 
coming in, and when they do get in to get them out quickly.
    Mr. Scott. Thank you.
    Sheriff, did you have a comment on that?
    Sheriff Gutierrez. Yes. There are some constitutional 
issues. I will tell you that, unfortunately, Lubbock County 
came under a Federal lawsuit, and during my 30 years of 
experience our jail was declared unconstitutional by cruel and 
unusual punishment, and it set the standard for all the jails 
across Texas for the proper care, medical treatment and 
assistance.
    And the judge is correct, that the problem has become very 
overwhelming and we are trying to stay on top of those issues, 
and we are very concerned that we may, once again, return to 
that Federal guidance or oversight.
    Mr. Scott. Now, sheriff, you mentioned that 30 percent of 
the patients were already mental health patients, and I suspect 
that a lot of others should have been mental health patients. 
And you treat them all as indigents so there is not a financial 
barrier to them receiving services once they get to you?
    Sheriff Gutierrez. Yes. We treat them as indigents so that 
our local hospital locally can provide the services continuum 
of care. However, somebody has to pay for it and that is the 
citizens, the taxpayers, of those counties.
    Mr. Scott. But since they are treated as indigents and they 
are in the criminal justice system, the services get provided.
    Sheriff Gutierrez. We are trying to provide those services. 
The problem is there is not enough money to be able to fund 
those issues. That is where we need your assistance to provide 
that care.
    Mr. Scott. And if you have a drug court and you want to 
divert them somewhere, you have to have some services there----
    Sheriff Gutierrez. To assist them, absolutely. We are 
looking locally at some mental health courts. The problem is, 
once again, the funding. We have put together locally----
    Mr. Scott. And that is not funding for the court, that is 
funding for the services----
    Sheriff Gutierrez. Services, absolutely.
    Mr. Scott [continuing]. That the court will have at its 
disposal.
    Sheriff Gutierrez. That is correct.
    Mr. Scott. Do you want to make a comment, Mr. Evans?
    Mr. Evans. Yes, sir, Mr. Chairman. Most jails do not have 
this kind of psychiatric and therapeutical talent systems in 
place. It is not a therapeutic environment, it is a stressful 
environment, and it is absolutely the wrong place to treat 
people with mental illness.
    Now, if you go to jail because you have created a major 
offense, you need to be in jail, then you need to be treated, 
but having our jails and prisons be the substitute for mental 
health hospitals, that is wrong.
    Mr. Scott. Thank you.
    Mr. Forbes?
    Mr. Forbes. Thank you, Mr. Chairman.
    Let me once again thank all of you for taking time to come 
here.
    Mr. Perry, thank you for being here and for your testimony.
    Lieutenant, can you tell us, what proactive steps can be 
taken to prevent mentally ill offenders from actually 
offending?
    Mr. Wall. In Los Angeles, we have initiated a new program 
that focuses exactly on that. It is called our CAMP program, 
our Case Assessment Management Program. We are the only law 
enforcement agency in the Nation that maintains a database of 
law enforcement contacts with the mentally ill, and when these 
high utilizers come up regularly and we identify people like 
Mike, the person I was talking about earlier, Mike was our 
first CAMP patient.
    We looked at him, and I said, ``We are going to kill him. 
This person is truly going to die at the hands of law 
enforcement based on his behavior.'' As a result, we became 
very intense in working with the Department of Mental Health.
    And I talked with my chief and I said very simply, ``Chief, 
here is the deal: If I can tell you the day a crime is going to 
occur, where that crime is going to occur and who the suspect 
is going to be, will you allow me to deploy police resources to 
prevent that crime?'' And the answer is always, ``Yes.''
    Well, if it involves a patient who is suffering from mental 
illness and we know what his pattern is and we know that on the 
15th of the month he is going to begin acting out, why can't we 
go out on the 13th and talk to his family and see if he has 
taken his meds, and if he has not, provide linkage with the 
Department of Mental Health before we have an action or we have 
an incident?
    As a result of that intensive type of procedures with Mike, 
remember that 17-month period generated 22 holds and 45 calls 
for service. In 2006, he generated one radio call, and we have 
not had a radio call in over a year with that individual. Now, 
we contact him monthly, we still talk to the family every month 
to make sure everything is being done, but most of that is 
being driven by the Department of Mental Health because of our 
partnership with the Department of Mental Health.
    Mr. Forbes. Mr. Evans, are there any other effective 
programs that could be used for collaborative approaches, other 
than mental health courts, for pre-and post-arrest diversion?
    Mr. Evans. Yes, sir. In fact, we have several. One of the 
programs is an intensive outpatient commitment, and a lot of 
people with severe mental illness, also have cognitive learning 
disabilities, they have a hard time staying compliant with 
their treatment. They can't remember to take their medications 
because of their illness. A lot of them don't have significant 
others or families to help support them.
    And so what we have done is we have given, on the civil 
side, the probate judge a case worker, and we look at people 
who have had multiple admissions to the State hospitals and 
they are kind of in and out of compliance of treatment, and we 
do outpatient commitments, and we do treatment plans around 
that and report back to her court to see if the person is 
compliant, similar to what Los Angeles does.
    We have had almost a 50 percent reduction in hospital bed-
day usage and other public services just by having one case 
worker there and a judge stand up before this person and say, 
``I care about your health, you are not being compliant, I am 
ordering you to see your doctor, take your medication and stay 
in compliance with your treatment.'' And it works. It is 
absolutely amazing, and it is not very costly.
    We also have some step-downs for first-time offenders. We 
have three projects, we have a 60-bed facility for those people 
who do get put in jail and some mental health step-downs where 
we actually have treatment and it is overseen by the parole 
division.
    We provide the therapeutic treatment in two 100-bed 
facilities for substance abusers. Most of these are young 
people, young family members, a lot of them have kids, and they 
don't understand what the drugs and alcohol are doing to 
themselves. And it is a therapeutic environment, and we are 
starting to show good outcomes there.
    So I think there is a variety of other kinds of 
partnerships with law enforcement and the mental health and 
substance abuse community that could be provided. I know the 
National Council of Behavioral Health has 1,300 members in 
rural frontier and urban settings that stand ready to serve, 
but there needs to be some way to develop these specialized 
models, these best practices, these collaborations so we drive 
out waste and get the best return on our investment with these 
partnerships.
    Mr. Forbes. Thank you.
    Judge, thank you for your work on this and the program. 
Just a quick question, my time is almost out. On your program, 
does it require the judges participate in the training program 
as well?
    Judge Leifman. We do have some training, and we are now 
actually looking to install a statewide training program for 
all the judges in Florida.
    Mr. Forbes. Good.
    Well, thank you all so much. Sorry I am out of time; I 
would love to talk with all of you more.
    Mr. Chairman, I yield back.
    Mr. Scott. Thank you.
    The gentleman from Georgia, do you have questions?
    Mr. Johnson. Yes, thank you.
    Mr. Wall, prior to the institution of your educational 
program for the officers, what percentage of the persons who 
were incarcerated in your jail were suffering from mental 
illness?
    Mr. Wall. I can't give an accurate answer to that for two 
reasons: Number one, prior to 2004, we didn't keep accurate 
number of contacts; and, secondly, our patients are not 
housed--Los Angeles city doesn't have a jail. Ours are housed 
at the Twin Towers facility with the Los Angeles County 
sheriffs.
    I can tell you from my discussions with the sheriffs, 
though, that a significant percentage of those patients that 
are within Twin Towers come from the city of Los Angeles, and, 
currently, the sheriff maintains approximately 1,000 beds, 
which at any given time are full.
    Mr. Johnson. Does anybody else on the panel have any 
insight?
    Judge Leifman. We do. I am with Miami-Dade County. We 
segregate the people who have mental illnesses in the jails, so 
we actually had a study done. And we have about 20 percent of 
the population on psychotropic medication. We are the largest 
psychiatric warehouse or facility in Florida. We spend $100,000 
per day warehousing them in our jail.
    Mr. Evans. In San Antonio, as Sheriff Gutierrez explained, 
we do a cross-match with the State mental health database, and 
even though we have this phenomenal diversion program, we still 
have 16 to 20 percent of folks who go to book-in that have a 
history of treatment in the mental health system at one time or 
another. We are also stationed at book-ins so we can divert 
there also.
    And one of the problems is during the crisis intervention 
training you only can train so many officers at a time, and 
there are, like, 5,000 law enforcement officers in Bexar 
County, and at 40 a class, we have only got several classes, so 
there is still a lot of training to do.
    We are starting to train dispatchers and 911 folks, so if 
somebody is called and its somebody that sounds like they are 
having mental health problems, one of these specially trained 
officers show up.
    Mr. Johnson. Judge Leifman, that is $100,000 per year?
    Judge Leifman. Per day.
    Mr. Johnson. Per day.
    Judge Leifman. Thirty-six million dollars a year.
    Mr. Johnson. Thirty-six million dollars a year. That 
includes petty criminals as well as----
    Judge Leifman. Yes. In fact, what was interesting in the 
study that we did, about 55 percent of the people that have 
been arrested were on third degree felony charges, which in 
Florida is the lowest level of a felony. But 65 percent of 
them, which was about 1,100 people a year, were on what we 
would consider an avoidable arrest. It doesn't mean it didn't 
happen, but it was like battery on a law enforcement officer or 
resisting with violence. And so it probably occurred, it is 
just the officer may not have been trained on how to avoid it 
and the situation escalated as opposed to deescalated.
    That is a lot of people that should not have been in our 
jail to begin with that we could have avoided, put them into a 
mental health system, which would have been more effective and 
efficient and cost-effective.
    Mr. Johnson. Certainly cheaper, because it cost----
    Judge Leifman. No doubt.
    Mr. Johnson [continuing]. You how much per inmate, per day?
    Judge Leifman. It is very expensive. I mean, it is a lot 
less expensive to get them treatment, and it is a lot more 
humane for them to make sure that they are in a system of 
wellness and recovery as opposed to one of criminalization.
    Mr. Johnson. Yet, sometimes, I suppose, when persons--let's 
take, for instance, Mike. I wouldn't call him a petty crime 
suspect, but let's suppose that he was a petty crime suspect 
and he would act out every month according to that schedule 
that you gave and without proper training officers would come 
along and lock him up and he wouldn't be able to make bond, and 
he would languish in the jailhouse for some number of weeks, or 
perhaps months, until he came to court. And I guess his 
condition would be stabilized while he was in the jail, 
perhaps, we would hope.
    Judge Leifman. Perhaps.
    Mr. Johnson. And before he went through this cycle of going 
to jail, he may have had some Medicaid benefits, he or she. And 
once he or she was incarcerated, they would cease to be 
eligible for those Medicaid benefits and unable to pay for the 
medication that they were not taking.
    And so how difficult is it once that type of person gets 
out to reestablish the coverage so that they can have the 
medication that at least they can have the option to take?
    Judge Leifman. If I may, it is one of the biggest problems 
we have. It usually takes at least 6 months to get someone 
their benefit. And when someone is leaving jail they need it 
the day they are leaving. They need housing, medication and 
case management the day they leave.
    So what we did in Miami-Dade is we are trying a novel 
approach. We were able to get our county government to give us 
a lump sum of money on a pilot basis, and what we are doing is 
signing an agreement with the consumer and Social Security in 
our county. We are fronting the benefit for them so we are 
making sure there is housing, medication and case management 
the day they get out.
    When their benefit kicks in, it is retroactive. Instead of 
it going back to the consumer, it is coming back to us, it 
replenishes our fund and we are leveraging the Federal dollar, 
and we will have more money to help the next person.
    And so far it's been very, very successful, and it is the 
only way we can figure out to get around the 6 months, because, 
quite frankly, we might as well not offer the benefit if you 
don't give it to them the day they leave, because they are 
going to go back to substance abuse issues, they are going to 
get rearrested and they are going to continue to recycle.
    Mr. Johnson. Yes. Thank you.
    Mr. Scott. Gentleman from North Carolina, Mr. Coble?
    Mr. Coble. Thank you, Mr. Chairman.
    Mr. Chairman, as you know, I think prison overcrowding is 
one of the most severe problems facing society today, and when 
you have prison overcrowding involving mentally ill offenders, 
the problem becomes severely compounded.
    I appreciate you all being here.
    Judge, does the criminal mental health project coordinate 
with other jurisdictions interested in focusing on mental 
illness? And if so, are there distinctions from programs and 
procedures implemented by other jurisdictions?
    Judge Leifman. Yes. We do work with other jurisdictions, 
and what we have decided is each jurisdiction is a little 
unique and novel, so we try to work with them to set up a 
system but to operate it in a fashion that works best for them.
    I mean, in Dade County, we have six public crisis 
stabilization units, so we have a written understanding with 
them that when someone gets arrested on a low-level misdemeanor 
offense, within 24 to 48 hours we divert them to one of these 
crisis units, we try to put a case management system into place 
and follow them.
    Another community may have private hospitals, not a crisis 
stabilization system, and they will try to work out a similar 
situation.
    Mr. Coble. I got you. Thank you.
    Mr. Perry, at what point did the court take your illness 
into account when you were having difficulty with the law 
enforcement people?
    Mr. Perry. The last time I was in jail, my public defender 
suggested that I try to get accepted to mental health court.
    Mr. Coble. And had you been incarcerated prior to that 
time----
    Mr. Perry. Yes.
    Mr. Coble [continuing]. Several times?
    Mr. Perry. I have been incarcerated eight times in my adult 
life.
    Mr. Coble. Mr. Perry, was marijuana the only illegal drug 
you used that got you into difficulty?
    Mr. Perry. No. I used more than that. Marijuana was the 
drug that was the one that I was charged for, though.
    Mr. Coble. I got you. Thank you, sir.
    Sheriff, how can the Federal Government assess local and 
State officials dealing with mental health issues, and are 
certain incentives more effective than others?
    Sheriff Gutierrez. Sir, I believe that the problem that we 
are facing is in the continuum of care, and once they are 
released, it is providing the proper facilities and services 
for these individuals so that they could possibly not be 
rearrested. Integration back into the community is paramount, 
and the lack of resources seems to be the problem that we are 
facing today.
    Mr. Coble. Thank you, sir.
    Lieutenant, how does L.A. review its mental health programs 
to ensure that they are effective in being well and prudently 
managed?
    Mr. Wall. We have a multilayered approach. One of the 
first, in fact, is happening tonight in Los Angeles. We have 
quarterly stakeholders meetings with members of the community 
where the community can come in and talk on an open forum about 
issues involving law enforcement and mental illness, their 
perceptions of what needs to be fixed, and then we actively 
work on that.
    I also report, through my chain of command, semiannually to 
the Board of Police Commissioners, which in Los Angeles is 
appointed by the mayor to oversee police operations and set 
policies and procedures for the department. And so I report to 
them on a semiannual basis.
    And then on top of that, we also are currently under the 
Federal consent decree. So we are being looked at by the 
independent monitor and the Federal court, all of which have 
given our program very high remarks.
    Mr. Coble. I thank you for that.
    Mr. Evans, what role do prosecutors and the courts play in 
your program that you oversee?
    Mr. Evans. We, Congressman, are working with prosecutors in 
getting peace bonds and mental health bonds for people that get 
incarcerated, actually get put in jail that have committed a 
major crime. We also have established a mental health court 
where we are working with judges on book-in, the original book-
in and dockets there for early diversion.
    So almost every place in the criminal justice system there 
is a contact for the mentally ill person. We are working with 
that branch of government in the judicial system to make sure 
that justice is served but also that these people get the 
needed treatment so they don't decompensate and end up getting 
back involved with law enforcement.
    Mr. Coble. Thank you, sir.
    Mr. Evans. Thank you.
    Mr. Coble. My time is about to expire, Mr. Chairman. I 
yield back.
    Mr. Scott. Thank you very much.
    And I thank the witnesses for your testimony. This has been 
very helpful, and, to a large extent, our efforts will be in 
the Appropriations Committee, but this hearing record will be 
extremely important. I have talked to at least one appropriator 
so far who is going to be very supportive of trying to get some 
additional funding for you.
    So thank you very much for your testimony.
    And I would ask unanimous consent that a letter from the 
Justice Center, from the Council of State Governments, be 
entered into the record. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Scott. Members may have additional written questions 
for our witnesses, and we will forward them to you and ask you, 
if there are any, to answer them as quickly as possible so they 
can be made part of the record.
    And, without objection, the hearing record will remain open 
for 1 week for submission of additional materials.
    Without objection, the hearing now stands adjourned. Thank 
you.
    We will now be going into a Subcommittee markup on the 
Second Chance Act, and it will take us a few minutes to get 
reconfigured.
    [Whereupon, at 3:12 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
